<html>
<title> - RUSSIA'S OCCUPATION OF GEORGIA AND THE EROSION OF THE INTERNATIONAL ORDER</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                   RUSSIA'S OCCUPATION OF GEORGIA AND
                 THE EROSION OF THE INTERNATIONAL ORDER

=======================================================================

                                HEARING

                               BEFORE THE

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 17, 2018

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 115-2-4]
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                       Available via www.csce.gov
                       
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-828PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5c3b2c331c3f292f283439302c723f333172">[email&#160;protected]</a>                     
                       
                       


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS
                    

              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			 SHELDON WHITEHOUSE, Rhode Island
                       

                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]
                                  
                                  
                                  
                 RUSSIA'S OCCUPATION OF GEORGIA AND THE
                   EROSION OF THE INTERNATIONAL ORDER

                              ----------                              

                             July 17, 2018
                             
                             COMMISSIONERS

                                                                   Page
Hon. Roger F. Wicker, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1

Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................     3

Hon. Christopher H. Smith, Co-Chairman, Commission on Security 
  and Cooperation in Europe......................................     4

Hon. Gwen Moore, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    15

Hon. Richard Hudson, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    19

Hon. Randy Hultgren, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    19

Hon. Sheila Jackson Lee, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    22

Hon. Cory Gardner, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    25

                               WITNESSES

David Bakradze, Ambassador of Georgia to the United States.......     6

Damon Wilson, Executive Vice President, Atlantic Council.........     8

Luke Coffey, Director of the Allison Center for Foreign Policy, 
  Heritage Foundation............................................    11

                                APPENDIX

Prepared statement of Hon. Roger F. Wicker.......................    35

Prepared statement of Hon. Christopher Smith.....................    37

Prepared statement of Hon. Benjamin L. Cardin....................    39

Prepared statement of Amb. David Bakradze........................    41

Prepared statement of Damon Wilson...............................    45

Prepared statement of Luke Coffey................................    50

 
                 RUSSIA'S OCCUPATION OF GEORGIA AND THE
                   EROSION OF THE INTERNATIONAL ORDER

                              ----------                              


                             July 17, 2018

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 11:00 a.m. in Room 124, Dirksen 
Senate Office Building, Washington, DC, Hon. Roger F. Wicker, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Roger F. Wicker, Chairman, 
Commission on Security and Cooperation in Europe; Hon. 
Christopher H. Smith, Co-Chairman, Commission on Security and 
Cooperation in Europe; Hon. Benjamin L. Cardin, Ranking Member, 
Commission on Security and Cooperation in Europe; Hon. Gwen 
Moore, Commissioner, Commission on Security and Cooperation in 
Europe; Hon. Richard Hudson, Commissioner, Commission on 
Security and Cooperation in Europe; Hon. Randy Hultgren, 
Commissioner, Commission on Security and Cooperation in Europe; 
Hon. Sheila Jackson Lee, Commissioner, Commission on Security 
and Cooperation in Europe; and Hon. Cory Gardner, Commissioner, 
Commission on Security and Cooperation in Europe.
    Witnesses present:  David Bakradze, Ambassador of Georgia 
to the United States; Damon Wilson, Executive Vice President, 
Atlantic Council; and Luke Coffey, Director of the Allison 
Center for Foreign Policy, Heritage Foundation.

    HON. ROGER WICKER, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wicker. This hearing of the Helsinki Commission will 
come to order. Good morning, and welcome to this hearing on 
``Russia's Occupation of Georgia and the Erosion of the 
International Order.'' As you know, the Helsinki Commission 
monitors the compliance of OSCE-participating States to the 
1975 Helsinki Final Act. In recent years, we have been 
compelled to pay particular attention to Russia's clear, gross, 
and uncorrected violations of all 10 principles of the OSCE's 
founding document.
    In August 2008, Russian armed forces invaded Georgia in 
direct violation of the territorial integrity and political 
independence of states. This initial invasion has sadly led to 
10 years of occupation, affecting one-fifth of Georgia's 
sovereign territory and causing incalculable political, 
economic, and humanitarian cost. The invasion of Georgia 
demonstrated that Vladimir Putin is ready and willing to use 
his military and intelligence services to redraw international 
borders and meddle in the internal affairs of a neighboring 
state. Moreover, Mr. Putin clearly sought to sabotage Georgia's 
progress toward membership in NATO, contravening the principle 
that sovereign states have the right to freely join security 
alliances of their choosing.
    The response to the Kremlin's aggression against Georgia 
was not enough to deter Mr. Putin from trying his hand again in 
Ukraine in 2014. In fact, Georgia and Ukraine are only the two 
most egregious examples of Russian challenges to the integrity 
of our borders, our alliances, and our institutions over the 
past decade. The Helsinki Commission is holding this hearing to 
make sure the American people and the international community 
do not lose sight of the continued illegal occupation of 
Georgia, as well as its costs and implications. The experts 
before us will help assess if the United States is doing 
everything possible to restore Georgia's territorial integrity 
and reverse Mr. Putin's assault on the borders of a neighboring 
state and on the international order. We also intend to ensure 
Georgia's contributions to our common security are recognized, 
and that we continue to help it advance along its path to Euro-
Atlantic integration and full NATO membership.
    Under my chairmanship, Ranking Member Cardin and I have 
worked across the aisle to demonstrate the firm bipartisan 
resolve of the U.S. Congress to restore Georgia's territorial 
integrity and see the alliance make good on its promise of 
membership. To that end, in March of last year we introduced 
Senate Resolution 106, condemning Russia's continued occupation 
and urging increased bilateral cooperation between the United 
States and Georgia. More recently, ahead of last week's NATO 
summit, Senator Cardin and I, along with Commissioners Tillis 
and Shaheen, introduced Senate Resolution 557, underscoring the 
strategic importance of NATO to the collective security of the 
United States and the entire transatlantic region. This 
resolution explicitly encourages all NATO member states to 
clearly commit to further enlargement of the alliance, 
including extending invitations to any aspirant country which 
has met the conditions required to join NATO. I'm especially 
looking forward to hearing how our panelists assess the 
outcomes of the NATO summit.
    Ladies and gentlemen, we will hear testimony this morning 
from a distinguished panel who will provide valuable 
perspectives on the current state of the conflict in Georgia, 
prospects for its resolution, and recommendations for U.S. 
policy. I am pleased to welcome Georgia's Ambassador David 
Bakradze to testify before us this morning. In addition to his 
firsthand experience in managing Georgia's strategic bilateral 
relationship with the United States, Ambassador Bakradze has 
worked at senior levels of Georgia Government to deepen 
Tbilisi's Euro-Atlantic partnerships. Prior to his appointment 
to Washington in 2016, the Ambassador served as state minister 
of Georgia for European and Euro-Atlantic Integration.
    Next we will hear from Damon Wilson, executive vice 
president of the Atlantic Council. Mr. Wilson's areas of 
expertise include NATO, transatlantic relations, Central and 
Eastern Europe, and national security issues. At the time of 
Russia's invasion of Georgia, Mr. Wilson was serving as special 
assistant to President George W. Bush and senior director for 
European Affairs at the National Security Council. In that 
capacity, he played a leading role at a critical time in 
managing interagency policy on NATO, the European Union, 
Georgia, Ukraine, the Balkans, Eurasian energy security, and 
Turkey.
    Finally, we will hear from Luke Coffey, director of the 
Allison Center for Foreign Policy Studies at the Heritage 
Foundation. Mr. Coffey was named to his post in December 2015 
and is responsible for directing policy research for the Middle 
East, Africa, Russia, and the former Soviet Union, the western 
hemisphere, and the Arctic region. What's left? Before joining 
Heritage in 2012, he served at the U.K. Ministry of Defence as 
senior special advisor to British Defence Secretary helping 
shape British defense policy regarding transatlantic security, 
NATO, the European Union, and Afghanistan.
    I'll now recognize Senator Cardin for an opening statement, 
to be followed by an opening statement by Co-Chairman Smith. 
Senator Cardin.

HON. BENJAMIN L. CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Thank you, Mr. Chairman. I'm more than willing 
to defer to Co-Chairman Smith first, if you'd like.
    Well, first, thank you all very much for convening this 
hearing, Senator Wicker. And I thank our witnesses, 
particularly the distinguished ambassador. It's a pleasure to 
have you here. I think we should acknowledge that what happened 
in 2008 with Russia's invasion of Georgia, it was done because 
Russia's calculations, Mr. Putin's calculations at that time, 
that under the circumstances he could get away with it, that 
the reaction would be minimal from the international community. 
And he looked at it as an opportunity to disrupt Georgia's 
accession into Europe and into NATO.
    And, quite frankly, it worked. He was able to do that. It's 
not the first time he interfered. We know Russian troops in 
Moldova have been able to stay there, making it much more 
difficult for Moldova to be able to become a NATO member. And 
we've seen it since in what Mr. Putin did in Ukraine with an 
invasion and annexation of Crimea. And his calculations have 
always been that if you let me get there, let me do it, I'm 
going to do it, because his objective is to bring about lack of 
unity within Europe and to compromise democratic institutions 
or governments that depend upon democratic institutions.
    So we should learn from this lesson of history. And I 
mention that because Senator Wicker, as we were talking before 
the hearing started, yesterday was an amazing moment in regards 
to the Trump-Putin summit. And yes, there is no dispute, at 
all, that Russia interfered in our elections in 2016. That's 
not subject to any serious disagreement. And it is true that 
Mr. Putin interfered in the European elections. That's 
absolutely factually established. Six months ago, I authored a 
report on behalf of the Senate Foreign Relations Committee that 
talked about Mr. Putin's design on democratic institutions and 
talked about his asymmetric arsenal of weapons that includes 
the use of cyber, that includes the use of military, that 
includes the use of energy, that includes the use of 
corruption. It includes all these tools in order to disrupt 
democratic governments.
    And that report points out very clearly, you give Mr. Putin 
an opening, he'll take it. He'll take it as far as he can go. 
And what really worries me about yesterday's press conference--
there's a lot of things that are concerning. I mean, to 
discredit our own intelligence agencies to side with a dictator 
rather than with our allies--I'd go on, and on, and on. But 
it's a signal to Mr. Putin that you can attack the American 
election and you have the president of the United States on 
your side. So what happens in 2018? What happens with Mr. Putin 
saying, well, it worked with elections, let's try something 
else in the United States. Because I have a friend in the White 
House that wants to establish a relationship with me that 
allows me to do these nefarious activities against democratic 
institutions.
    And the report that we issued makes it very clear why Mr. 
Putin is doing this. His corrupt system of government depends 
upon corrupt governments. It can't--won't survive in 
democratic-controlled governments. So it's in his interest, in 
restoring the Soviet power, to bring down democratic 
governments and to show as much lack of unity as possible among 
the West. And he was involved in Brexit, and the list goes on, 
and on, and on.
    So I think we've got to learn our lesson from history. I 
want to thank Senator Wicker. He's been a great leader on 
bringing the Senate together on this issue. He mentioned the 
resolution we did in 2017 on Georgia. It was a pleasure to join 
you on that. Clear statement. Also, I might tell you, our 
resolution that deals with NATO expansion was passed by the 
Senate Foreign Relations Committee. Senator Gardner, of course, 
was a major player in making sure that happened in the Senate 
Foreign Relations Committee. So we've passed both of those 
issues. As I'm sure everyone here is aware, we passed the 
CAATSA statute, which made it very clear about taking action 
against Russia as a result of their violations of the Helsinki 
commitments.
    And I was pleased to see at NATO that the Bucharest summit 
document, that commits us to the full membership in Georgia in 
NATO, was reaffirmed just in this most recent summit in NATO. 
Despite some of the publicity that was brought about before and 
during the NATO summit, the final document reinstates--or, 
reemphasizes our commitment, Mr. Ambassador, to Georgia's full 
membership in NATO. And we're committed to that. And we want 
Mr. Putin to know that it's not up to him. It's up to the 
people of Georgia. And it's up to the NATO partners.
    Mr. Wicker. Thank you, Senator Cardin.
    Co-Chairman Smith.

HON. CHRISTOPHER H. SMITH, CO-CHAIRMAN, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Smith. Thank you very much, Mr. Chairman. Thank you for 
calling this important and very timely hearing.
    Ten years ago, as a consequence of Russia's invasion of 
Georgia, two of my constituents were trapped behind Russian 
lines in South Ossetia. The girls, Ashley and Sophia, were 7 
and 3 years old. Russia's land grab transformed the girls' 
summer trip visit to their grandparents' home into a family 
nightmare. Another young girl from my district was trapped in 
Abkhazia. Again, what could have been a great visit with 
grandmom turned out to be a horrifying experience. Matter of 
fact, after we got her out I remember her telling us how she 
was--and her grandmother--were prostrate on the floor of their 
home, their flat, as Russian tanks rumbled right in front of 
their home. So, again, a very, very frightening experience for 
that young girl.
    I arrived in Tbilisi on August 19th, 11 days after the 
invasion, and worked with U.S. Ambassador John Tefft--who is 
one of our finest and he went on, as we all know, to be our 
ambassador to Russia--with French Ambassador Eric Fournier, who 
also did a magnificent job, particularly on the girls. It was 
he who, because they had the European Union presidency that 
cycle, volunteered in direct request from us to go, and it took 
6 hours through checkpoints to get to the two girls, put them 
in the back of his limo, and bring them out safely. That would 
be Sophia and Ashley.
    We also met with the Red Cross and many others who were 
working overtime to try to mitigate the damage brought about by 
this terrible Putin invasion. Ashley and Sophia were soon 
reunited with their parents in Howell, New Jersey. Then we 
worked with the Red Cross to secure others. When other members 
of Congress knew I was going, all of a sudden I had a portfolio 
of family members, and every one of them we worked to 
effectuate the release with our ambassador. And, one by one, 
they all got out of what could have been a disastrous 
situation.
    As the first member of Congress to arrive in Georgia after 
the invasion, I also met with President Saakashvili, also with 
the prime minister, the Orthodox Patriarch Ilia II, and, of 
course, many other Georgians of all walks of life, including at 
an IDP camp. Despite Putin's aggression the people of Georgia 
showed great courage, great resolve, and competence during the 
national emergency. They were calm, even though time and again, 
even while we were there, Russian troops got on the road to 
Tbilisi in some kind of psychological move, only to turn back 
after going several hundred yards. What I found so incredible 
about the Georgians was their resiliency, their love for their 
country, and their love for democracy.
    Two years ago, along with the chairman, we were back in 
Tbilisi for the annual meeting of the OSCE Parliamentary 
Assembly. And several of us made a trip to the fence where the 
Russians--at South Ossetia. It was just like the old Soviet 
times. They stood there. They had a camera. They had a backlog 
of trucks and cars that were trying to get into South Ossetia. 
And when we arrived they took out the camera and with, what I 
remember from the 1980s with the Soviets, just kept staring and 
acting in a very defiant way. It was like the old times were 
back, or perhaps have never left.
    I look forward to our witnesses today, learning from them 
what might be done to mitigate the humanitarian suffering 
caused by this new Iron Curtain. What can be done, because just 
like--I'll never forget, one of the first things that I was a 
part of with--and I was just there with him--but when President 
Reagan had captive nations resolutions talking about the 
Baltics, we said: We're not going to recognize the illegal--
just like Crimea--the illegal occupation of Lithuania, Latvia, 
or Estonia. And if you looked at any American map, they were 
not--they were independent. They were not part of the Soviet 
Union. We need to have the same kind of resolve when South 
Ossetia and Abkhazia and, of course, all parts of Ukraine, 
including and especially the Crimea.
    So I want to thank our distinguished witnesses for being 
here. Yield back.
    Mr. Wicker. Thank you very much for that fine opening 
statement, to both of you.
    Ambassador Bakradze, we'll begin with you. And if we have a 
timekeeper, let's set the timer at 6 minutes and ask that the 
witnesses summarize their testimony. Your full testimony will 
be received, of course, in the record. But, Ambassador 
Bakradze, we are delighted to have you and you may proceed.

   DAVID BAKRADZE, AMBASSADOR OF GEORGIA TO THE UNITED STATES

    Amb. Bakradze. Thank you very much, Chairman Wicker, Co-
Chairman Smith, Ranking Member Cardin, Senator Gardner, and 
distinguished commissioners. Thank you for the opportunity to 
testify at this hearing.
    Today we are speaking about the violations of the OSCE 
principles and commitments by the Russian Federation in the 
illegally occupied regions of Georgia. And I feel like this is 
a quite appropriate topic of discussion, not only because 10 
years have passed since the Russia-Georgia War, when Russian 
Federation invaded and occupied two Georgian regions, but also 
because Russia continues its aggressive policy aimed at 
redrawing the borders and retaining the so-called zones of 
influence.
    As Chairman Wicker, you have rightfully mentioned, this 
undermines the security and peace in Europe and creates a very 
dangerous environment that, if not appropriately countered, may 
lead to developments in the region that will be hard to 
reverse. In my remarks today, I will briefly introduce you to 
the situation in the Georgian regions illegally occupied by the 
Russian Federation. I would also like to draw your attention to 
the humanitarian, social, and other costs that Russian 
Federation and its occupation have imposed on people residing 
in the occupied and adjacent areas. And I will conclude my 
remarks highlighting the U.S. role.
    Since 2008, the Russian Federation is in breach of full 
spectrum of the principles of Helsinki Final Act of the 
Conference on Security and Cooperation in Europe--such as 
sovereignty and territorial integrity, inviolability of 
frontiers, refraining from the threat or use of force, 
refraining from making each other's territory the object of 
military occupation, refraining for any demand for or act of 
seizure or occupation of territory of another state, the human 
rights violations, and many, many more. Through these 10 years, 
the Russian Federation has intensified its illegal steps toward 
factual annexation of Georgian regions of Abkhazia and 
Tskhinvali.
    Moscow has further continued the implementation of so-
called integration treaties absorbing Georgia's occupied 
regions into Russia's military, political, economic, and social 
systems. In gross violation of all international obligations, 
the Russian Federation reinforces its military presence and 
occupation, having illegally stationed fully operational 
military bases with 10,000 militaries, 3,000 FSB personnel, 
sophisticated offensive weaponry, constantly conducting 
military drills and violating Georgian airspace.
    At the same time, Russian Federation intensifies the 
installation of barbed wire fences and other kinds of 
artificial barriers along the occupation line. The total length 
of barriers reached 49 kilometers alongside the occupation line 
in Abkhazia and 52 kilometers along the occupation line in 
Tskhinvali region. Against this background, the EU monitoring 
mission deployed in Georgia on the basis of the cease-fire 
agreement is not allowed by the Russian Federation to enter the 
occupied regions to fully implement its mandate throughout the 
whole territory of Georgia.
    The human rights situation remains alarming, with 
fundamental rights of the local population infringed on daily 
basis, against the backdrop of intensified ethnic 
discrimination, restriction of free movement, illegal detention 
and kidnappings, deprivation of property rights, prohibition of 
education in native language, and other ethnically based 
violations. The local population is deprived of minimal 
safeguards for their lives. Murder of ethnic Georgians by the 
representatives of occupation regime has become a dangerous 
trend. We all remember the killings of Basharuli, Otkhozoria, 
Tatunashvili. In all these cases, despite cooperation by the 
government of Georgia in the relevant formats, the questions 
still remain unanswered and the perpetrators unpunished.
    This makes crystal clear that the occupation regimes in 
Sukhumi and Tskhinvali not only strengthen this sense of 
impunity, but also further encourage ethnically targeted 
violence and crime against Georgian population. In this regard, 
on the basis of the Resolution of the Parliament of Georgia, 
the Otkhozoria-Tatunashvili List was adopted that includes the 
persons convicted of gross human rights violations in the 
occupied regions. The Georgian Government seeks from its 
partners the imposition of sanctions on the persons included in 
the list.
    With these provocative steps, the Russian Federation tries 
to undermine the efforts of Georgia and its international 
partners for peaceful conflict resolution. Nevertheless, 
throughout the last several years the government of Georgia has 
been pursuing peaceful conflict resolution policy unwaveringly. 
Unlike the Russian Federation, we remain in full compliance 
with the EU-mediated 2008 cease-fire agreement. We have 
reconfirmed our adherence to the non-use of force principle, 
still awaiting further reciprocity from the Russian Federation. 
We pursue the policy of dialog with the Russian Federation, 
aimed at de-escalation of tensions.
    Reconciliation and engagement policy remains our priority, 
and we even reinvigorated efforts by presenting new 
opportunities through the new peace initiative, A Step to a 
Better Future. The document is distributed for your attention. 
At the same time, international support is decisive in order to 
succeed in the peaceful conflict resolution process. And I will 
be happy to elaborate on this more during the question-and-
answer session.
    While talking on the peaceful conflict resolution in 
Georgia, I should emphasize that the United States has a 
particular role in this process as our strategic partner and a 
participant of Geneva international discussions. We greatly 
value the U.S.-Georgia partnership and contribution of the 
United States in peace and stability in Georgia. On a political 
level, Georgia enjoys a widespread bipartisan support across 
the U.S. Government, Congress, and the administration. The 
Georgia-U.S. bilateral relation has never been stronger, and 
continues to strengthen under the current administration, which 
has repeatedly stated its opposition to the Russian occupation 
of Georgian territories, as well as strong support for 
Georgia's NATO integration.
    The U.S. Congress has been always vocal on these very 
important Georgia matters. In June, the bipartisan Georgia 
Support Act was introduced in the U.S. Congress by Congressmen 
Poe and Connolly. We greatly appreciate the recent bipartisan 
resolution offered by Senators Perdue, Isakson, and Cardin, 
marking the 100th anniversary of the first Democratic Republic 
of Georgia. We appreciate inclusion of Georgia language 
supporting territorial integrity issues in the Consolidated 
Appropriations Act and National Defense Authorization Act.
    It is the time that this political support is further 
reinvigorated in practical steps, in order to ensure the 
implementation of the cease-fire agreement and comprehensive, 
peaceful settlement in my country. We believe, through 
consistence and hard work, we can lay the ground for a lasting 
peace and security in Georgia. In this regard, I would like to 
emphasize the necessity of the peaceful conflict resolution to 
be placed high in the international area, as well as in the 
U.S. dialog with Russia. Strong leadership of the United States 
is essential to reach progress in the resolution of the Russia-
Georgia conflict.
    We deem it crucial that the international society doesn't 
keep a blind eye on Russia's aggressive actions with regard to 
the occupied territories of Georgia, and severe security and 
humanitarian situation on this ground that this policy entails. 
Firm stance of the international society, and particularly the 
United States, is decisive to send a clear message to Russia 
that this policy directed against sovereignty and territorial 
integrity of Georgia is not acceptable.
    Let me once again thank the commission for organizing this 
hearing. And I'm looking forward to hearing from Luke Coffey 
and Damon Wilson, who I thank wholeheartedly for their input 
and long-time interest.
    Thank you.
    Mr. Wicker. Thank you, Mr. Ambassador.
    Mr. Wilson.

    DAMON WILSON, EXECUTIVE VICE PRESIDENT, ATLANTIC COUNCIL

    Mr. Wilson. Thank you, Chairman Wicker, Co-Chairman Smith, 
Ranking Member Cardin, and distinguished commissioners.
    On April 3, 2008 at NATO's Bucharest summit, just over 10 
years ago, the consensus among allies on how to build a Europe 
whole and free fell apart. I was serving as senior director for 
European affairs at the National Security Council at the time 
and had a front row seat. In Bucharest, NATO leaders failed to 
agree to offer a membership action plan to Georgia and to 
Ukraine to help them better prepare to become allies. When 
Washington and Berlin were unable to reach a deal, Central 
European leaders stepped into the breach to push NATO to agree 
that Georgia and Ukraine, ``will become members of NATO.''
    Seemingly, leaders decided that NATO membership for Georgia 
and Ukraine would be a question of when, not whether. Yet 
today, 10 years on from Bucharest and 10 years on from the 
subsequent Russian invasions of Georgia and then Ukraine, we 
run the risk of our rhetoric becoming detached from reality. 
We've agreed a vision, but we don't really have a strategy to 
get there. Many allies have lost faith in this vision and we 
run the risk of accepting an unstable gray zone of insecurity 
in Europe's east.
    Since 2008, we've witnessed a revanchist Kremlin, intent on 
undoing the democratic gains of the post-cold war period, 
reshaping the international order that allowed Europe to remain 
peaceful and prosperous, and ensuring the domination of its 
neighbors. The strategic environment has changed so 
dramatically. As a result, our approach to Europe's east should 
also change. We should, and can, correct the shortcomings of 
Bucharest and reverse these Russian gains.
    In many respects, this process has already begun. At the 
just-
concluded NATO summit, we saw ally leaders invite the 
government in Skopje to begin accession negotiations, paving 
the way for the Republic of North Macedonia to become NATO's 
30th member. And it was in Bucharest, after all, where NATO 
failed to extend this invitation, opening a decade of 
stagnation which Russia sought to exploit. Last week's decision 
overcomes that failure. We can do the same with Georgia and 
Ukraine.
    With this decision, leaders recognize that enlargement is a 
stabilizing factor. Enlargement advances U.S. interests as it 
welcomes nations to our alliance which are willing and able to 
assume the responsibility of becoming an ally, while also 
ensuring that a new ally is more immunized from Russia's effort 
to destabilize it. We've witnessed this formula in the Baltics. 
While the region is tense today given Russia's aggressive 
intimidation tactics, imagine what northeast Europe would look 
like today if the Baltic States were not in NATO.
    This logic applies to Georgia. The Russia-peddled paradigm 
that enlargement is provocative is wrong. Leaving nations who 
aspire to join the alliance in limbo is provocative, as it 
temps Russia to extend its sphere of influence, either through 
sowing chaos to ensure weak states, or occupation and 
domination to ensure obedient neighbors. As history has shown, 
this Russian strategy is not a recipe for stability but for 
perpetual instability and potential conflict. Even the most 
cynical grand bargain, consigning Russia and Georgia to 
Russia's sphere of influence, would not be durable as it denies 
the aspirations, the agency of the people of the nations 
themselves. They have a say in their future. Witness the Rose 
Revolution. Witness the Maidan.
    To put today's dilemma in context, consider the Truman 
administration decision to bring Greece and Turkey into NATO in 
1952. Greece was emerging from a brutal civil war. Turkey 
remained vulnerable as Stalin sought more reliable access to 
the Mediterranean. Russia sought to topple the government in 
Ankara during the Turkish Straits crisis, and we were waging 
war on the Korean Peninsula. Yet, President Truman acted 
decisively--first bilaterally and then through NATO--to anchor 
Greece and Turkey in the West. Rapidly, U.S. diplomacy overcame 
an obvious flashpoint and anchored a region bordering the 
Soviet Union and NATO.
    It is the absence of security for Georgia and Ukraine that 
has tempted Russia to occupy and annex their territory. 
Georgians and Ukrainians have done more than most to fight to 
defend the principles of the alliance. Both spend well over 2 
percent of their GDP on defense. Georgia is among the most 
significant troop contributors to NATO and other international 
missions. Ukraine has the most battle-tested forces of any 
European nation. Both already act as allies.
    Yet, NATO has handcuffed itself by abiding by the 
principles developed in its 1995 study on enlargement and its 
adoption of the Membership Action Plan [MAP] process in 1999. 
The study on enlargement sets expectations that nations 
aspiring to membership will resolve any territorial disputes 
before entering the alliance. Allies adopted the MAP process to 
help nations take the practical steps to better prepare to 
become members. These policies were crafted in different--that 
is, benign--geopolitical circumstances. They made great sense 
then. Today, however, NATO's own policies incentivize Russia to 
hold onto occupied territories as long-term insurance to 
prevent enlargement.
    In today's environment, MAP serves to signal to Russia that 
the alliance is getting more serious about membership, without 
yet being serious about membership. A MAP decision in many 
respects begins a countdown clock which may put pressure on 
Moscow to act to disrupt the neighbor's accession process 
before it accedes, much like we witnessed in Montenegro. To 
avoid this dynamic, we could update NATO's open-door policy for 
today's new circumstances. Allies should make clear that their 
commitment that there's no third-party veto over enlargement 
means that Russian occupation will not serve as an obstacle to 
membership. Allies should recognize that MAP is not a 
requirement for membership, but rather instruments like the 
NATO-Georgia Commission and its annual national plans provide 
even more rigor in helping Georgia prepare.
    There's significant precedence in determining where NATO's 
security guarantee in Article 5 would apply. We've seen this 
with West Germany. We've seen this during the debates of where 
it would apply for France and Belgium in colonial days. In the 
case of Georgia and Ukraine, the North Atlantic Council can 
make clear that the Washington treaty does not apply to the 
occupied territories, but without relinquishing allied 
commitments to the nation's territorial integrity, and without 
Tbilisi and Kyiv giving up their claims of sovereignty.
    Today, Europe finds itself at the center of global 
geopolitical competition. The circumstances mean that we cannot 
be ambivalent. Precisely because of this tension the 
elimination of gray zones of insecurity can help ensure durable 
peace in Europe's east. Permitting these nations' aspirations 
to be held hostage by Russian occupation and intimidation is a 
recipe for instability and conflict in Europe. We should not 
allow these nations, known as the captive nations for much of 
the 20th century, to become known as the hostage nations of the 
21st century. Rather, we should recognize that they stand on 
the front line of freedom today and anchor them within our NATO 
alliance to ensure a peace in Europe's east.
    Thank you.
    Mr. Wicker. Thank you very much.
    Mr. Coffey.

LUKE COFFEY, DIRECTOR OF THE ALLISON CENTER FOR FOREIGN POLICY, 
                      HERITAGE FOUNDATION

    Mr. Coffey. Thank you. Good morning Chairman Wicker, Co-
Chairman Smith, Ranking Member Cardin--who's stepped out it 
seems--and distinguished commissioners. I'm honored to speak 
here before your esteemed commission about ``Russia's 
Occupation of Georgia and the Erosion of the International 
Order.'' With your permission, Mr. Chairman, I will summarize 
my prepared statement that has been submitted for the record.
    In August 2008, while the world was fixated on the summer 
Olympics in Beijing, a Russian invasion force passed through 
the Roki Tunnel on the Russian-Georgian border. After 5 days of 
fighting, the fighting finally stopped after a cease-fire 
agreement was brokered by France. And a decade later, Russia is 
still not in full compliance with the cease-fire agreement. 
Today, thousands of Russian troops occupy the Georgian regions 
of Abkhazia and South Ossetia, which together account for 20 
percent of Georgia's internationally recognized territory. Mr. 
Chairman, if a foreign army occupied the equivalent one-fifth 
of the contiguous United States, it would be comparable to all 
land west of the Rocky Mountains.
    Ten years later, we should not forget that it was Russia 
that invaded Georgia, not the other way around. In this case, 
Russia is the aggressor and Georgia is the victim. I submit to 
this Commission that Georgia is important for the United States 
for three reasons. First, Georgia is a dependable ally. At the 
height of the fighting, Georgia had more than 2,000 troops 
serving in what was statistically one of the deadliest places 
in Afghanistan, central Helmand Province. On a per capita 
basis, Georgia has suffered more killed in combat there than 
any other country that's contributed to the operation, yet they 
only joined in any meaningful sense halfway through the 
campaign. And today, it has almost 900 troops serving alongside 
U.S. troops.
    Second, Georgia's strategic location makes it important for 
U.S. geopolitical interests in the broader Eurasian region. 
Located in the South Caucasus, Georgia sits at a crucial 
geographical and cultural crossroads that has been important 
for strategic, military, economic and energy reasons for 
centuries. Third, since regaining independence in 1991, after 
the collapse of the Soviet Union, Georgia has been on a 
successful journey toward democracy. It is an example for the 
region. Have there been shortcomings and challenges along the 
way? Yes. But as we know here in the United States, democracy 
is a process and not a single event.
    It is in America's interests that Georgia remains on this 
path. Georgia's journey to NATO membership has been a long and, 
at times, frustrating one. Even so, few countries in Europe 
express as much enthusiasm for NATO as the Republic of Georgia. 
It has the closest relationship with NATO that a country could 
possibly have without being a full member. It has made good 
progress. And in the words of NATO Secretary General 
Stoltenberg, Georgia has all the practical tools to become a 
member of NATO.
    It is in America's interests to keep Georgia on this path 
toward NATO membership. But looming over the NATO debates is 
Russia. Russia's primary goal in Georgia is to keep it out of 
the Euro-
Atlantic community. We must understand how President Putin sees 
Russia's role in the world to understand why he does what he 
does in a place like Georgia. His actions are often described 
as cold war behavior, like we saw during the time of the Soviet 
Union. But, Mr. Chairman, in my opinion, this is an incorrect 
assessment. What we see today is an imperial Russia. We have a 
21st century Russia with 19th century ambition. We're dealing 
with Russia like it was before the revolution in 1917, during 
the time of the czar.
    During the cold war, the goal was to spread an ideology. 
During imperial times, the goal was to maximize and spread 
Russian influence using political, diplomatic, economic, and 
military means. Therefore, Putin sees Russia's role in the 
region through an imperial lens. Russia views the South 
Caucasus as being in its natural sphere of influence, and it 
stands ready to use military force in the region when necessary 
to exert its influence. Since 2008, South Ossetia and Abkhazia 
have essentially become large Russian military bases.
    Mr. Chairman, over the years I have visited the line of 
occupation on numerous times. This is a line that divides free 
Georgia from occupied Georgia. It is a line that divides 
communities, families, farms, and villages. Ten years after the 
war, the Russian threat is still present. I have seen the 
Russian flag flying on territory that the international 
community considered to be the Republic of Georgia. Over the 
years, Georgians have been abducted by Russian and separatist 
authorities. Some have never come back. Hundreds of thousands 
of people have been internally displaced. I have visited IDP 
settlements in Georgia and I have heard the plight of these 
people firsthand.
    Russia has also implemented a policy of borderization in 
Abkhazia and South Ossetia. As the ambassador said, this 
includes constructing illegal fencing, so-called ``State 
Border'' signs, and earthen barriers to separate communities 
and divide the Georgian people further. In extreme cases, 
Russia has even taken more territory by moving fences a few 
yards at a time. This is Russia's creeping annexation. As you 
can see from this map, research carried out by the Heritage 
Foundation has found that since 2011 there has been 57 cases at 
44 different locations of Russian borderization in Georgia.
    In conclusion, Georgia represents the idea that each 
country has the sovereign right to determine its own path and 
to decide with whom it has relations and how and by whom it is 
governed. In the case of Georgia, this shows why territorial 
integrity must be respected, and why no outside actor--in this 
case, Russia--should have a veto over membership with 
organizations like the EU or NATO.
    Mr. Chairman, in the middle of Tbilisi there's a bronze 
statue of Ronald Reagan. The political reforms taking place 
today in Georgia reflect Reagan's belief in democracy, free 
markets, a strong national defense, and the importance of 
individual liberty.
    For the Georgians, the statue stands as a reminder of how 
far they have come since the end of the cold war. For the West, 
the statue is a reminder that the cold war did not just end, 
but that it was won. And it was won because the ideas of free 
markets, economic freedom, individual liberty, and a strong 
national defense were much stronger than any army that the 
Warsaw Pact or the Soviet Union could ever put to the field. 
Georgia has shown a commitment to the U.S., it has shown a 
commitment to NATO, it has shown a commitment to difficult 
political, economic, and security reforms. And it has come a 
long way since 1991. Now is not the time for the U.S. to turn 
its back. I look forward to answering your questions. Thank 
you.
    Mr. Wicker. Thank you, Mr. Coffey. And thanks to all three 
of our distinguished panelists for excellent testimony.
    What I'm going to do is defer my questions until our House 
members have had a chance to ask theirs. So I will recognize 
Mr. Smith first, and then Ms. Moore.
    Mr. Smith. Thank you very much, Mr. Chairman, for that 
courtesy. And thank you for, again, pulling us together for 
this very, very important hearing. Pardon me.
    Mr. Wilson, if I could ask you, have the reasons why NATO 
failed in Bucharest in 2008 to offer membership action--a 
membership action plan to Georgia been overcome? What are the 
remaining difficulties? And when do you think this will happen?
    Second, if I could, the Georgian Parliament and the spirit 
of the Belarus Democracy Act and of the Magnitsky Act in March 
passed a resolution that calls on the Georgian Government to 
work with international partners to impose travel bans on those 
who are, quote, ``accused of murder, abduction, torture, and 
inhuman treatment of Georgian citizens.'' How is that being 
implemented? What would you recommend the Trump administration 
and our European allies do to effectively implement that very 
wise move?
    And just one simple question, finally--how many ethnic 
Georgians are still in the occupied lands of Abkhazia and South 
Ossetia? And what is the state of their living conditions?
    Mr. Wilson. Terrific, thank you, sir. Let me respond to the 
first one in particular, and maybe defer to the ambassador on 
the other two as well.
    I worked for President Bush in 2008 and was involved in the 
negotiations between Washington and Berlin on trying to get to 
yes on a membership action plan for Georgia and Ukraine. They 
were quite extensive, involving many conversations between the 
chancellor of Germany and the president of the United States. 
The German opposition at the time was based on a pretty 
consistent articulation about the skepticism that Georgian 
democratic institutions had matured sufficiently enough that 
this was really in effect a country consistent with European 
norms, one that would be welcome in the family.
    To the Germans' credit, they did not make an argument about 
Russia vis-a-vis their opposition to Georgia at the time. We 
could not bridge that gap as much as we thought we might be 
able to get there at Bucharest. We could not.
    Mr. Smith. But the Bush administration tried?
    Mr. Wilson. Quite, expended a tremendous amount of 
political capital.
    Mr. Smith. And did the model of Turkey being a NATO member 
but not a part of the EU play into that at all?
    Mr. Wilson. You know, I think--I think for--the chancellor 
had a high degree of skepticism of the Georgian leadership and 
Georgian institutions at the time. And was not willing to move 
on this. It was really one of the first times within the 
alliance that an opposition from an ally really led to a split 
on a core strategy piece.
    Now, in many respects, we've seen Georgia's democracy 
continue to evolve pretty significantly since 2008. And I would 
posit that the arguments that were presented in 2008 don't 
really hold today. And yet, we don't see quite a lot of 
enthusiasm from the allies. I think that underscores that 
second point. Much of the unspoken opposition was about what to 
do about Russia. The idea of enlargement in NATO had always 
worked because we had a strategy of advancing some type of 
strategic partnership with Russia--the permanent joint council, 
the NATO-Russia council. In the time of President Bush, we were 
working on a missile defense, a strategic deal which also did 
not come to fruition.
    So I think part of what many of the allies' concern is, the 
issue of Russia today. And so if you look objectively across 
the benchmarks, Georgia is well prepared, has exceeded many of 
the benchmarks--as we watch Montenegro come in, as we see an 
invitation to accession--the talks begin for Macedonia. Its 
issue is geography and Russian occupation. And I think it's 
therefore why I've tried to make the case that unless we change 
our paradigm of thinking about it, if we accept the Russian 
argument that enlargement is provocative, our allies will 
object, we won't be bold enough to push. We have to recognize 
that the absence of security here is actually what is going to 
be a recipe for conflict and instability.
    The inverse, enlargement to Georgia, much like the Baltic 
States, would create predictable relationships, would stabilize 
that situation. And there is precedence within the alliance in 
saying that for now Article 5 does not apply to the occupied 
territories of Georgia without sacrificing the principle of 
sovereignty or territorial integrity. This will only be able to 
come to fruition with U.S. leadership, because there will 
remain allied reservations. Turkey and Greece only came into 
the alliance at a very difficult time during the cold war 
because of a decisive move from the Truman administration that 
took what would have been a controversial decision and made it 
momentous, but not controversial. That's the same as what 
happened at the beginning of the Bush administration with the 
Baltic States.
    And so I think that's where we stand on enlargement today 
with Georgia. I might defer to the ambassador on the specifics 
about the parliament's actions and the Georgians in the 
occupied territories.
    Amb. Bakradze. Thank you very much for the question. Let me 
start with the Otkhozoria-Tatunashvili List. Giga Otkhozoria 
was cold-bloodedly killed at the occupation line. The person 
who has committed this killing is identified, but not punished. 
Tatunashvili, another Georgian, who was killed in the detention 
center in Tskhinvali occupied region. For almost 30 days, the 
body of the deceased wasn't returned. And when returned, it was 
without internal organs.
    These two cases demonstrate the brutality. And the 
Parliament of Georgia has come up with a resolution which is 
called Otkhozoria-Tatunashvili List, which those convicted in 
the crimes in the occupied regions of Georgia. We appreciate 
the very strong statement by the United States in this regard. 
And just a month ago, during the visit of the speaker of the 
Parliament of Georgia in the United States, the Congressmen Poe 
and Connolly introduced the Georgia Support Act, that includes 
the sanctions against people who committed these crimes in 
Georgia's occupied regions. This is under discussion in the 
Congress, and we would highly appreciate the strong support of 
the Congress in this regard. The European Union has also 
adopted a resolution with regards to Otkhozoria-Tatunashvili 
List.
    About the situation of the ethnic Georgians, there are 
around more than 50,000 Georgians in the Abkhazia occupied 
regions. And the people are deprived of simple human and 
fundamental rights, including the right of education in their 
native language. And that was forcing the children to cross the 
occupational line and get education in the Georgia's controlled 
regions. But closing of the checkpoints, limiting them from 6 
to 2, is also depriving them of that right. And as it was 
mentioned, on daily basis they suffer from different forms. 
They don't benefit from the freedoms of free movement, 
education, and all the basic rights.
    Mr. Wicker. Thank you very much, Senator--I mean, Chairman 
Smith.
    Ms. Moore.

    HON. GWEN MOORE, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Ms. Moore. Thank you so much, Mr. Chairman. It's really 
good to be here. Good to see you. Thank you all. Please forgive 
me if I have asked questions that you have already covered in 
your testimony due to my tardiness this morning.
    Very curious, the Trump administration has provided lethal 
weapons to Georgia. And I want to know, has there been any 
indication of their being on the verge of using them? Is there 
any military or diplomatic advice that's being given to use or 
not to use them? And do you anticipate that they'll be used to 
stop the aggression?
    Amb. Bakradze. Thank you very much. Georgia has pledged the 
non-use of force, and only peaceful way of conflict resolution. 
We benefit from the very close cooperation with the United 
States on different issues. Starting with the Georgia Defense 
and Readiness Program, that includes the training of Georgian 
military by the U.S. officers. That includes cooperation and 
exercises on yearly basis.
    Ms. Moore. And so these weapons are being used purely for 
exercises?
    Amb. Bakradze. These weapons are defensive weapons. And 
Georgia sees it this way. These programs strengthen Georgia's 
territorial defense, Georgia's defense capabilities, and the 
interoperability with NATO.
    Ms. Moore. Thank you. We are seeing very clearly, according 
to all of our intelligence agencies, a very sophisticated and 
continued attack by the Russians on cybersecurity. To what 
extent is Russia using cyber techniques to threaten Georgia's 
critical infrastructure? Do we have any notion of that?
    Amb. Bakradze. Well, Georgia has been subject to the 
different forms of what we now call hybrid warfare throughout 
the years. Russian market was closed totally for any kind of 
Georgian product in 2006. The energy pipeline was blown up 
during the severe winter. And in 2008, during the invasion 
also, the cyberattack took place against all Georgian 
governmental sites. And at that time, our close friend and 
ally, Estonia, was with us, which has suffered the same attack 
a year prior to that, to help us come out of that. Now we see--
and during the last year, Brussels summit, very strong 
engagement and cooperation on cybersecurity with our friends 
and allies in NATO. And Georgia is preparing itself for the 
future.
    Ms. Moore. Thank you. I think many parliamentarians in 
Georgia are frustrated with delayed efforts to be able to join 
the EU and NATO. Is there any indication, or is it your 
opinion, that perhaps the United States is sort of slow-walking 
the efforts--the sort of disengagement with NATO that we've 
seen recently, and the EU, is somehow contaminating or slowing 
the process of Georgia attaining that membership? Is there any 
spillover, cross-contamination?
    Amb. Bakradze. Thank you. We are as determined as ever. 
Georgia during the last 4 years has benefited largely on all 
the major directions of its foreign policy priorities--which is 
European Union, which is NATO, and strategic partnership with 
the United States. Georgia has signed the association 
agreement. Georgia has deepened comprehensive free trade area 
agreement with the European Union. And Georgia got the visa-
free travel with the European Union. These are the benefits 
that not only the citizens of Georgia living in the government-
controlled territories, but also citizens living in the 
occupied regions can benefit from. And this is an important 
incentive, to share the benefits of Georgia's European 
integration with our citizens in the occupied regions.
    Georgia's public has a very strong support to EU and NATO 
integration. By the very recent polls, this number remains with 
70 to 75 percent with regards to NATO and European Union. 
Georgia sees Europe and sees Western democratic way of 
development as part of its identity, as part of its history. 
And therefore, this way toward and this path toward the 
European and Euro-Atlantic integration is beneficial itself. 
And we are very optimistic that this, in time, will transform 
into the full-fledged membership of Georgia into European Union 
and into NATO, that Georgia is deserving.
    With regards to the United States, throughout the years we 
have been benefiting from the very strong bipartisan support of 
the U.S. administrations, of the U.S. Congress. And under the 
current administration, this relationship is stronger than 
ever. We have last year benefited from the very strong 
cooperation in defense and security, and at the political 
level. And we believe that this relationship that throughout 
the years transformed into the very solid strategic partnership 
will gradually form a very strong alliance.
    Mr. Wicker. Thank you. Thank you, Ms. Moore.
    Ms. Moore. Thank you for your indulgence, Mr. Chairman.
    Mr. Wicker. Thank you so much.
    Mr. Wilson and Mr. Coffey, the consensus among NATO 
supporters has been that membership would not--full membership 
would not be offered to countries where there was a territorial 
dispute. And both of you are arguing that we should put that 
aside and expedite Georgia's membership in NATO. Is this a new 
position for both the Atlantic Council and Heritage? How widely 
is it being embraced among like organizations? And if you could 
talk about that. And then I would ask the Ambassador also.
    The concern has been that to bring Georgia in or Ukraine in 
would be to freeze the lines where they are and, more or less, 
to recognize that. So if you'd talk about that, and I think you 
would acknowledge that this is a new position on your part. Mr. 
Wilson.
    Mr. Wilson. Mr. Chairman, yes. This is a significant 
conceptual evolution, yes. I offer this as my thinking rather 
than presenting my institution's visions. It's my sense, rather 
than the Atlantic Council. But the point is that we adopted 
strategies for enlargement in the post-cold war period when we 
had a peaceful, benign security environment. So it made sense. 
I was part of the teams that did this. We said, look: If you 
want to join our clubs of NATO and the EU, before you come into 
the club you need to resolve your border disputes, your 
territorial disputes. We didn't want the historic tensions that 
we saw in Central Europe being imported into the alliance.
    So we pushed for border treaties. We pushed for treaties of 
friendship between the allies. And it was a great process that 
actually helped build the ethos of former adversaries becoming 
allies. It made sense in a benign environment. Flash forward. 
We're no longer in a benign environment. We're in a very tense 
geopolitical situation. So Russia sees NATO's policies of 
saying that we won't take new members if they have territorial 
disputes--that tells Moscow, OK, then I just need to have 
territorial disputes and, by definition, I've used their rules 
to create long-term insurance for me that NATO and the EU won't 
come to my borders.
    So what I'm arguing is that, yes, the United States needs 
to lead the alliance through a conceptual reevaluation of how 
we think about our enlargement strategy, our open door, to say 
that we're going to say we will be willing to accept new 
members, even if they have territorial disputes, with the 
caveat that we will decide not to apply our security guarantee 
to those occupied territories. Furthermore, I'm trying to make 
the case that this isn't actually a new position, that there's 
precedent within NATO. 1955 we brought in West Germany without 
Germans giving up the sense of ultimate commitment to the idea 
of sovereignty.
    At the beginning of the alliance, France actually wrote 
that the security guarantees would apply to Algeria, when they 
said Algeria was part of our country. We had to actually 
reverse that decision with the war of Algiers and Algerian 
independence. The Belgians argued unsuccessfully to apply 
Article 5 to their territory in the Belgian Congo. Today Spain 
has cities--two cities--on the African continent, in Morocco, 
for which we don't have NATO defense plans to guarantee.
    My point is, is that this isn't radical. This is 
recognizing that the policies that we set up in a benign 
period, post-cold war period, the Russians are now manipulating 
them by continuing to be incentivized to hold onto territory 
because they know that means we won't proceed with enlargement. 
So we have to change our own conception to say that doesn't 
apply anymore. We're willing to take you, Georgia. But we won't 
apply it to these occupied territories. And that will only 
happen if the United States pushes for that way of thinking, 
leads the alliance through that process and that consensus and 
helps build support around that idea.
    Mr. Wicker. Mr. Coffey, is your position yours or the 
position of the Heritage Foundation?
    Mr. Coffey. I believe, just like Damon, I speak on behalf 
of myself today. However, it was in a Heritage Foundation 
report back in February where I laid out in detail how this 
proposal could work. The important distinction between Georgia 
and Ukraine in this case is that Georgia has a non-use of force 
pledge. Ukraine doesn't. Ukraine is fighting a war in the east. 
Bullets are flying. Soldiers are dying. It's very kinetic. 
Whereas with the situation in Georgia with the non-use of force 
pledge, if you pledge not to use force to get the two occupied 
regions back, then why would you need a security guarantee on 
these two occupied regions?
    Now, Mr. Chairman, I want to make very clear that if NATO 
does go down this road--which I think with U.S. leadership it 
should--it should be made very clear that this is not to 
question Georgia's territorial integrity. In the event of my 
proposal, which I'll submit the report for the record along 
with a detailed article I wrote on the subject, all of Georgia 
would be joining the alliance, but only the regions not under 
Russian occupation would get the Article 5 security guarantee 
until the conflict is resolved peacefully through a non-use of 
force method, as the Georgian Government has said.
    We should never--we, being the alliance--should never ask 
the Georgian people to make a choice between NATO membership or 
their territorial integrity. One of the things that first 
attracted me to Georgia was the sense of pride the Georgians 
have with their country, their history, their culture, their 
identity. That goes back a millennia, two millennia. And I 
suspect that well into the future, a thousand years from now 
when NATO probably doesn't exist for whatever reason--hopefully 
it'll be a good reason--the Georgian people will still be there 
and they will still have their unique identity and culture and 
way of life. So to me, it would not be worth it as a Georgian 
to give up my territorial integrity to join NATO.
    But thankfully, no one is asking them to do so. And the 
proposal, as discussed, is not asking them to choose between 
territorial integrity or NATO membership. But it's time that we 
start getting creative on how we can get Georgia across the 
finish line on this. Otherwise, as Damon pointed out, Russia 
thinks that all they have to do to block a country from joining 
NATO or the European Union is to invade and partially occupy. 
And I think that's unsustainable.
    Thank you.

 HON. RICHARD HUDSON, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hudson. Thank you.
    And this time I'll recognize Mr. Hultgren for any questions 
you might have.

 HON. RANDY HULTGREN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hultgren. Thank you. Thank you all. It is--this is an 
important ongoing topic. And especially just recognizing 10 
years of occupation here and really seeking and searching for 
the answers and solutions of what really would be effective 
here.
    I do want to follow up--and I apologize as well if there 
were things that you discussed before I was able to get over to 
the hearing. I apologize for that. But wondered if, just for my 
own understanding, what would be the process for us to change 
policy for us to be able to accept--you know, for Georgia to be 
accepted into NATO, even though this conflict continues. What 
practically has to happen and what changes it? And what 
timeline potentially could that work in?
    Mr. Coffey. Well, it would require U.S. leadership. That's 
the bottom line. If the U.S. wants to lead on this, if the 
Trump administration wants to lead on this in the same way the 
Bush Administration did and spend the same amount of political 
capital that Damon described during his tenure, then we could 
really move the ball on this, I believe. The situation has 
changed since 2008. And I think that over the years there's 
been this sort of repetition of the stale argument that Georgia 
can't join, Ukraine will never join, because they're partially 
occupied. But there are ways around this. And I think it goes 
back to leadership.
    Mr. Hultgren. Can you flesh that out a little bit more for 
me? What do you think the leadership needs to look like? Is it 
resolutions? Is it hearings? What specifically do you think 
ought that leadership to look like?
    Mr. Coffey. Very clear and vocal public statement by the 
President of the United States and members of his Cabinet that 
they are going to pursue NATO's enlargement agenda with great 
rigor. And was already said earlier in this hearing, NATO's 
enlargement brings stability and prosperity, and then economic 
development and economic prosperity to regions of Europe that 
otherwise would not enjoy these things. And making the case not 
only to the American public, but to our European allies who are 
hesitant and to the European publics on why NATO is relevant 
today, why it's a good thing that it adds new members when they 
meet the criteria, and how we cannot allow a third party--in 
this case, Russia--to essentially block the Euro-Atlantic 
integration of certain European countries.
    Mr. Hultgren. That's helpful.
    Mr. Wilson. If I could just add a little bit----
    Mr. Hultgren. If you would.
    Mr. Wilson. It all begins, yes, with political will, but 
let me unpack it if I were back in my old job as a diplomat. To 
operationalize that political will, we--I would--we would want 
to see the United States lead an effort to get a tasking to 
come out of the North Atlantic Council to reexamine the open-
door policy, the enlargement strategy, so that there is a 
conceptual policy reexamination of how we do enlargement. 
Through that study, the United States could help shape that so 
that it comes out that it removes the sense, the requirement 
that territorial disputes by definition have to always be 
resolved in advance of enlargement, and saying these egregious 
cases, coupling that with a non-first use of force, that there 
will be--the aspirant pledges not to use force first to resolve 
these disputes. And you can see a recrafting almost adapting 
the NATO study of enlargement from a peaceful post-cold war 
period to now, a period of geopolitical competition, to make it 
more relevant to today's security environment.
    I'd say second, then have the North Atlantic Council 
reexamine the process. When I was in government we created a 
membership action plan to help countries prepare. There's no 
reason it has to be part of that process. And I think the NAC 
should recognize that Georgia has the tools necessary. It 
doesn't need to wave a red flag before those that oppose 
membership by requiring MAP as a next step, which is now a 
diplomatic way of putting obstacles, barriers, and prolonging 
the path. But then it does come back, once you've done the 
homework, cleared out the underbrush, updated a policy, removed 
the obstacles on paper--it still really does come down to a 
political decision and a political will that will require our 
allies to have confidence that the United States is leading on 
this, just like Greece and Turkey.
    The other allies didn't have the capacity to think that 
they could play a real role with Greece and Turkey coming in. 
They had to be assured that the United States was serious. In 
fact, President Truman stepped forward bilaterally first. And 
with such a decisive bilateral step forward, the allies were 
willing to see the United States was serious, we'll come along 
and make this a NATO decision. So it will--there is some 
bureaucratic diplomatic process to unfold, which I would do 
that homework to remove the excuses. But it will come back to 
political will and American determination.
    Mr. Coffey. If I may just quickly add to that--if you start 
to see things changing with the opinions and the attitudes of 
the administration on this issue--not to say that it hasn't 
been good on Georgia. I mean, the U.S.-Georgian relationship 
has thrived under the Trump administration, you could argue, 
then you will see other European countries start to follow 
suit. And the important thing that Damon just said about how 
Truman led on that bilateral relationship with Turkey and 
Greece at the time is important today because any future 
membership of Georgia into NATO will be built on the foundation 
of a strong U.S.-Georgia bilateral relationship. And I think 
that's very important, that we don't lose that in the weeds--
that importance of that bilateral relationship.
    Mr. Hultgren. Can I add on just real quickly, of what you 
would all suggest? Certainly I think the step for NATO is 
important and something I would support, and I think many of us 
would, but also looking at OSCE and EU and how does this all 
fit together, again, to address this ongoing occupation of 
Georgia? Which is the best structure or grouping of structures, 
do you think, to potentially push back on that? Any thoughts?
    Mr. Wilson. I guess the configuration of this is that we 
haven't made it uncomfortable for Russia to be occupying 
territory. The status quo is actually pretty easy for them. And 
so I think I'm arguing is that if we don't actually change our 
policies, change our attitudes, we have to create a pain 
threshold for occupation. Right now, we've incentivized 
Russians troops to stay because they think we've basically come 
to a stalemate. And, you know, they're comfortable with that. 
We have to change what we're doing through NATO--I would argue 
also EU would have to follow. But I would think it would only 
follow. And then using the OSCE in a more assertive way, where 
the Russians have a voice, so it's difficult. But we haven't 
created pain points for the Russians through their occupation 
right now. And how do we use all of our instruments of power--
diplomatic and otherwise--to create costs on the Russian 
occupation--be they financial, be they political, and in some 
cases be they security commitment side of this?
    It does have a prerequisite that the allies have no doubt 
about America's commitment to NATO. I think that's a 
prerequisite to get all this right. And that's why I think the 
Congress's voice on NATO this past week is really important. 
Some of the rhetoric has caused questions. But I think that has 
to be clear with our allies, they understand American 
commitment to NATO first before they'd be ready to go down a 
path of something that if there weren't political will would be 
seen as risky. If there's a decisive attitude on the part of 
the Americans, it reduces risk and actually provides a sense of 
predictability and stability.
    Mr. Hultgren. OK. Can I ask one more question, or no? Is 
that all right?
    Just quickly, Ambassador, maybe I'll address this to you. 
And it really is in regards to some of the violations of Moscow 
with the terms of the August 2008 cease-fire agreement, denying 
humanitarian access to occupied areas. I wonder if you could 
just briefly talk about how and when Moscow is hindering 
humanitarian aid delivery and the work of international human 
rights monitors. And specifically in that situation, what can 
we do to make sure that aid, and these entities can get in to 
deliver that aid?
    Amb. Bakradze. Thank you very much. If I may, very briefly, 
to respond to the previous question, and to say that Georgia is 
as ready as any country can be to become a member of NATO. This 
is important, because Georgia is already an enhanced 
opportunity partner, Georgia is an aspirant country, Georgia is 
spending 2 percent on defense spending, 20 percent of which are 
on acquisitions. And is a willing and able partner to 
contribute to the international security, as we have 
demonstrated so far and as we have been standing together with 
allies with the largest per capita contribution.
    And I believe that with this administration we see a very 
strong appreciation of that dedication by the Georgian people. 
We see a forward-leaning position of the State Department and 
the White House for the preparation of the Brussels summit. And 
I would say that this is the first week after the Brussels 
summit, which means this is the first week of the coming 2 
years to prepare for the next summit. And we'll be working very 
closely with the administration, with Congress, with 
organizations like Atlantic Council, Heritage Foundation, to 
build a strong case for Georgia's membership, that I believe 
there is.
    With regards to the situation in the occupied regions, 
Russia has been violating the many norms of the Helsinki Final 
Act, but also its own commitments taken during 2008 cease-fire 
agreement. If I may just underline that OSCE is a member of the 
Georgia international discussions. And we believe there is a 
potential to reach progress on the core items, like non-use of 
force commitment by the Russian Federation, like implementation 
of the principles and establishment of international security 
arrangements on the ground--something that was also part of the 
six-point cease-fire agreement. And the dignified return of 
IDPs to their homes.
    Implementation of cease-fire agreement by the Russian 
Federation with including the withdrawal of forces to the pre-
war position. This was also the commitment taken by the Russian 
Federation that it has unfortunately not fulfilled. I think 
Geneva international discussions, the very strong presence of 
the OSCE, the participation of the United States and European 
Union, our partners, will be important to find the ground to 
advance in this process of peaceful conflict resolution.
    Mr. Hultgren. Thank you all so much.
    Chairman, thank you. I yield back.
    Mr. Hudson. Thank you.
    And this time I'll recognize the gentlelady from Texas, Ms. 
Jackson Lee, for any questions you might have.

 HON. SHEILA JACKSON LEE, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Ms. Jackson Lee. Mr. Chairman, thank you very much. And let 
me thank the chairman and ranking members of our United States 
Commission on Security and Cooperation and the U.S. Helsinki 
Commission. Let me thank the witnesses as well. And thank you 
for your service.
    I think this is probably a more important hearing than we 
might have expected in the context of which we are here today. 
I just left a Judiciary Committee hearing and serve on Homeland 
Security. And we will be meeting this week as well. So, 
Ambassador, let me thank you for your presence here. And let me 
join in acknowledging that you live in a challenging 
neighborhood. And the very fact that Georgia has committed to a 
non-aggressive posture as it relates to disputed territories 
speaks volumes for what I believe is your commitment to 
democracy. Tell me, how dangerous is your neighborhood, Mr. 
Ambassador?
    Amb. Bakradze. It's as dangerous as you can get. But 
despite that, I thank you for the recognition----
    Ms. Jackson Lee. Let me particularly focus--Mr. Ambassador, 
let me focus on how dangerous your neighborhood is. How 
dangerous is your neighborhood with Russia being one of your 
neighbors in particular? Let me just focus on that 
relationship.
    Amb. Bakradze. Thank you very much. Thank you for 
recognizing that despite the difficult neighborhood, despite 
the 20 percent of Georgian regions being occupied, Georgia is a 
very committed partner of the United States, of the European 
Union. Georgia has proved that a small nation can be a strong 
contributor to the regional security that we are, can be a 
model country for the democratic transformation as we are. And 
reliable and loyal ally for the United States that we are.
    It is difficult. And with the support of the United States, 
of our European friends, we have managed to live in the very 
difficult neighborhood, being subject of the different forms--
starting from invasion, from cyberattacks, propaganda that 
takes place----
    Ms. Jackson Lee. Coming from where, sir?
    Amb. Bakradze. From the region that is--and from the 
country that is subject to the Russian invasion. After the 
collapse of Soviet Union in the beginning of 1990s, the Russia-
fueled separatist movement started to take place in Georgia, 
that has caused different processes including the 
passportization of people living in the occupied regions in the 
end of 1990s, including the energy shutdowns, including the 
blockades, including the cyberwarfare and informational 
propaganda. So throughout these years, we have maintained a 
very strong support to Georgia's choice of being the part of 
the Europe, being a part of the organizations that believe in 
the liberties and democratic development.
    Ms. Jackson Lee. Specifically, if I might----
    Amb. Bakradze. European Union and NATO.
    Ms. Jackson Lee. Thank you. Specifically, if I might, how 
does Russia exert malign influence today in Georgian politics 
and society?
    Amb. Bakradze. The Russian Federation on weekly basis, we 
face the building of razor-wire fences inside Georgia's 
territory. The length of the artificial barriers, which 
includes the razor-wire fences, are 52 kilometers on the 
occupation line with Tskhinvali region, which is 49 kilometers 
at the occupation line with Abkhazia. The Abkhazia region, 
Russian Federation and the--[inaudible]--from the occupation 
regime takes place on weekly basis. The murders that I've 
described previously have taken place on numerous times. And 
this engagement, these efforts by the Russian Federation, of 
course, disrupt Georgia, disrupt its internal political 
stability.
    Despite that, we have managed to create enough stability in 
Georgia to manage and during the past 5 years advance on 
Georgia's European integration process, signed association 
agreement, free trade agreement, started visa-free travel with 
the European Union, advance on the NATO membership. And as 
Damon Wilson mentioned, Georgia already has all practical 
tools. And this is recognized by the NATO. And probably Georgia 
doesn't need any additional tools to prepare for the membership 
and to advance our bilateral relationship with the United 
States, which is our strategic partner, and which we believe in 
time and gradually will become our strategic ally.
    Ms. Jackson Lee. Well, let me be very clear as I pose one 
or two more questions. You are obviously in the posture of 
having the building blocks and the indices and the check marks 
that it takes to get into NATO membership. Is that your 
statement here today, Ambassador, that you have made all of the 
steps toward the requirements for NATO membership?
    Amb. Bakradze. Yes, we have.
    Ms. Jackson Lee. And you continue to be a democratic 
nation.
    Amb. Bakradze. Yes, we are.
    Ms. Jackson Lee. And what you relayed to me that is on the 
record now is the intrusions and the undermining of your 
sovereign nation.
    Amb. Bakradze. Yes.
    Ms. Jackson Lee. And you've indicated that the perpetrator 
of that is Russia.
    Amb. Bakradze. Yes, ma'am.
    Ms. Jackson Lee. Is that under the present leadership of 
President Putin?
    Amb. Bakradze. Yes, ma'am.
    Ms. Jackson Lee. Let me also raise the point of the 
creative thinking that I heard as I walked in about creating a 
carve out or an exception for nations that have territorial 
disputes and having NATO in its effort to be fair to draw in 
those who desire to be part of the European network and NATO to 
look at that. And is that, Mr. Ambassador, what you would hope 
that you could be considered with the principles that you have, 
but recognizing that the dispute has not been generated by 
Georgia, or at least it is not something that's going to be 
readily resolved, but you are ready to be in NATO? Is that the 
point you're making?
    Amb. Bakradze. Dispute has never been initiated by Georgia. 
And Georgia's NATO integration and membership is not directed 
against any other country.
    Ms. Jackson Lee. Let me ask you, Mr. Wilson--and let me 
thank you for your work. And you worked on--I believe, for my 
fellow Texan. I think you might have worked for Mr. President 
George W. Bush. And certainly we know the secretary of state at 
that moment. And they certainly were strong supporters of NATO.
    What do you surmise is the impact of the press conference 
on yesterday?
    Mr. Wilson. To be frank, the press conference yesterday is 
a challenge to, I think, what is important in this region. The 
Russians have assaulted Georgia in many ways--from an invasion, 
through hybrid tactics, through intervention in their politics, 
their media, fueling stories against the United States. The 
Russians are able to succeed if there is a sense that the 
United States is ambivalent, not deeply engaged, and that the 
European partners are not with us there. And so coming out of 
this NATO summit, coming out of our meetings with the European 
Union, these things have consequences for the small nations 
around who depend on a sense of unity out of the Western 
nations--the United States with its allies and the 
transatlantic community--because it's a united approach in a 
country like Georgia. That's where we're able to push back on 
this malign Russian influence.
    It's not clear to me that there was any specific 
conversation about these issues. I don't know the details. But 
I do think it's important that Russian occupation in Georgia, 
certainly its actions in Ukraine, be a constant issue that we 
raise with them. Again, President Putin has to feel that there 
is a cost for his behavior against his nations. And I think 
we've got to do as much as possible--whether it's raising these 
in private meetings or having policies that actually raise the 
physical financial security costs of their occupation, that 
that needs to be part of our quiver.
    Ms. Jackson Lee. Do you think--what are Georgia's prospects 
for membership in NATO, from your perspective? And are we doing 
enough as the United States? As much as the Ambassador's been 
very gracious, what can we do as a strong supporter of NATO?
    Mr. Wilson. I think we've had two good things that help in 
this equation. I think it's been remarkable the strength of the 
voices coming out of the U.S. Congress that have been 
consistent in a bipartisan fashion in support of Georgia. And I 
think that sends important signals to our allies. And so thank 
all of you for being part of that. Second, we really have 
advanced and developed a security and defense relationship with 
Georgia that's quite significant. We used to be quite nervous 
about supporting Georgia's territorial defense. The United 
States is now providing the kind of lethal defensive weapons 
Georgia needs to make clear that it can actually help protect 
its own. I think those are two good steps.
    I think we do need to take a step further than that. I 
think we have to help the allies imagine how we actually 
deliver on the promise of the Bucharest summit that they will 
be allies one day. Right now, essentially, we're stuck because 
everybody assumes: Russian occupation, we can't advance. We 
have to change that paradigm to understand that it is only with 
enlargement to Georgia that we provide a network of stability 
and predictability in this region. It is our ambivalence or 
uncertainty, unwillingness to do this which will only tempt 
Russia to play games and actually is a recipe for conflict.
    And I think Americans have to lead that conceptual 
evolution so that it becomes actually policy evolution. We're 
not there yet, and I think that's what I'd like to see the 
United States more on.
    Ms. Jackson Lee. Let me just conclude and just say thank 
you. I think the Congress should go on record as a strong 
supporter of NATO, and strongly encouraging the admission of 
Georgia. And I know Ukraine is likewise in the same posture. 
And I do think that we should speak long, eloquently, and 
definitively against the inappropriate and disgraceful 
presentation yesterday. We are for NATO. On our own personal 
note, we understand the invasion in our own elections. And we 
should say that. And anyone who represents us internationally 
should say that as well.
    But I believe that what Russia says is that we provoke them 
by admitting a nation like Georgia. And I would say that 
Georgia is peaceful, NATO is peaceful--except for its provision 
to protect. And we should continue to do the North American and 
European peaceful relations with all the countries that want 
peace in this world.
    I yield back.
    Mr. Hudson. Thank the gentlelady.
    At this point, I'll recognize the senator for Colorado, Mr. 
Cory Gardner.

  HON. CORY GARDNER, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Gardner. Thank you, Mr. Chairman. Thank you very much. 
And I would note, with some agitation, that my colleague in the 
House has reached the chairmanship before I ever will, so--
[laughter]--it's great to see you here. To both of you here, 
thank you.
    Ambassador, it was great to see you in the office a couple 
of weeks ago with the speaker. I thank you very much for the 
visit. The speaker of the Georgian Parliament was there. And 
I'm grateful for the opportunity to engage in a conversation 
that is incredibly important. I'm going to ask a question, 
Ambassador. I don't know that it's appropriate to be directed 
to you, but it certainly is to Mr. Coffey and Mr. Wilson.
    A couple of months ago I wrote an op-ed in The New York 
Times. And it was titled, ``Is Russia Sponsoring Terrorism?'' 
And the gist of the editorial--the op-ed that I wrote--was 
about Russia's activities. Russia has invaded its neighbors, 
Georgia and Ukraine. Russia supports the murderous regime of 
Bashar al-Assad and our enemies in Afghanistan. Russia is 
engaged in information warfare against the United States and 
our allies around the globe. Russia has meddled in the U.S. 
elections and attempted interference in other elections around 
the globe. Russia has now carried out a nerve agent attack on 
allied soil.
    Just considering such a toxic label for Russia ought to be 
cause enough for Vladimir Putin. Should the United States--
should the U.S. Congress pass legislation asking the State 
Department to consider whether we should add Russia to the 
state sponsor of terror list, Mr. Coffey?
    Mr. Coffey. Well, I think it's beyond a shadow of a doubt 
that Russia enables terrorism and terrorist states to act. I 
mean, the diplomatic top cover it gives Iran on the 
international stage has huge implications for U.S. interests in 
the Middle East and the broader region. It's also puzzling from 
a historical point of view, when you look at the fraught 
relationship that imperial Russia had with the Persian empire, 
where for centuries these two entities were often at 
competition if not conflict with one another, that today 
Vladimir Putin would do Tehran's bidding for it on the 
international stage. I'm not quite sure, at the end of the day, 
what Moscow thinks it's going to get out of it.
    But, yes, I mean--the downing of MH17, which happened 4 
years ago today, 298 innocent civilians killed over the skies 
of eastern Ukraine, just a couple of weeks ago the British 
citizen killed in Salisbury--the list goes on and on. And we 
should not be fooled into thinking the President Putin is going 
to be part of the solution. He likes to inject himself into 
these problems so that he then becomes part of the solution. 
And Syria is a great example of that. But I could tell you, the 
U.S. and Russia have the same common goals in Syria in the same 
way that a robber and a customer have the same common goals in 
a bank. And we should go into any engagement, any meeting, any 
summit with Vladimir Putin with our eyes wide open, because 
nothing--since 1999, when he first came to power--indicates 
that he can be a trustworthy partner for the United States.
    Mr. Gardner. Thank you. Mr. Wilson. The legislation that 
I've introduced would require the State Department to make such 
a determination in 90 days. Should Congress take up that 
legislation and pass legislation to require the State 
Department to consider naming Russia a state sponsor of terror?
    Mr. Wilson. I think it's a very useful step for two 
factors. One, it helps us establish the sense that we're going 
to speak truth, we're going to speak clearly about the threat 
we face, a country that's been involved in the downing of MH17 
and the Skripal attacks. At the Atlantic Council we've hosted 
nearly every dissident that has been poisoned and survived on 
our stage. And we should recognize that and speak clearly about 
the threat that we face. And so I think, one, congressional 
discussion of this is a way for the United States to project 
clearly the understanding of the threat and challenge that we 
face from a KGB agent who's managing Russia out of the Kremlin 
right now.
    Second, I also think it creates the right kind of pressure 
on the administration and the types of works that we need to be 
taking forward. I think there is always scope, potentially, for 
an element if dialog, even with some of our adversaries, under 
the right circumstances. But the right circumstances mean that 
you come with eyes wide open and you speak clearly at what's 
happening. We had a problem with Georgia and Ukraine before, in 
which a lot of international officials were afraid to say 
Ukraine has been invaded, a simple statement which the American 
people can understand. And I think the utility of what you're 
pushing here in Congress is plain English about the threat and 
challenge that we see, so that it helps us shape more informed 
decisions on our policy and our outcomes.
    Mr. Gardner. Thank you to all three of you. Ambassador, 
thank you. And if you would care to comment?
    Amb. Bakradze. Yes. In Georgia's case, what we definitely 
see is the Russian Federation being an occupier. And that 
Russia has military--fully functioning military bases in 
Georgia, 10,000 troops, 3,000 FSB border guards. And that is 
why Georgia has no diplomatic relations with the Russian 
Federation. So we have the issues that we believe we can start 
solving with our citizens residing in the occupied regions. And 
as a country which believes in the peaceful resolution of this 
process, we believe that we will spare no efforts, together 
with our partners, to move to that direction.
    Mr. Gardner. Thank you, Mr. Ambassador. Thank you all.
    Mr. Hudson. Thank you, Senator.
    We've got a few more minutes. If you'll indulge me, I'll 
have a few questions for you as well. I appreciate how much 
time you've given us today, very important topic. What are 
lessons that we can learn from Georgia's experience as a target 
of Russian hybrid warfare? And I represent Fort Bragg in North 
Carolina, home of special forces and airborne. And those folks 
know a little bit about hybrid warfare. But it seems to me, 
this has been a textbook example of the use of hybrid warfare 
both in Georgia and in Ukraine. What can we learn from those 
experiences? What might be Vladimir Putin's next target for a 
similar invasion or hybrid warfare operations? And what should 
the United States be doing to anticipate and deter that threat? 
And I would just open that up to the entire panel.
    Mr. Coffey. Great. On the first point about what can be 
done to counter hybrid warfare, this is a very challenging 
question because, first, no one's--there's not one commonly 
accepted definition of hybrid warfare. We all sort of know what 
it is but when you ask, well, define it, you get slight 
variations. But I would say that there are three things that a 
country can do to make itself more insular or protect it 
against the hybrid threat. The first one is good governance at 
the local and at the national level. If people feel like 
they're governed well and governed fairly, then they become 
less susceptible to active measures like propaganda and 
influence operations.
    The second one is economic freedom. If countries enjoy 
economic freedom and economic prosperity, and people feel like 
that they have options in life and that their kids can have a 
better future, they become less susceptible as well. And a 
great example of this is Narva, Estonia, where more than 90 
percent of the population on the border--in Narva, a city on 
the border on Estonia and Russia--are Russian speaking. But 
polling has shown that, you know, they do not want a repeat of 
Crimea in Narva, because they know their situation's better off 
being a part of Estonia.
    And a third way to counter hybrid warfare and hybrid 
threats is a very respected and well-trained and professional 
security force. And I mean intelligence services. I mean law 
enforcement at the local level, at the national level. If 
people feel like they're treated fairly and they're protected, 
then I think they become less susceptible to the hybrid threat.
    On your second question, it's always risky as a think tank 
analyst to predict the next move. But I could--I don't have to 
take a leap from reality to see a situation where Russia 
antagonizes or exploits some of the social cleavages in the 
Armenian section of Georgia. Or I would keep an eye on 
Gagauzia, which is an ethnically Turkic but religious Christian 
Orthodox community in southern Moldova that borders southwest 
Ukraine, where they have very strong connections to Russia 
historically, culturally, and have had a pro-Russian governor 
recently elected.
    And these are areas that, you know, Putin can tinker around 
and meddle with to cause problems for us. And we need to be 
aware that it's not just South Ossetia or Abkhazia or Crimea or 
Luhansk or Donetsk. There are many places, many options for 
Vladimir Putin.
    Mr. Wilson. I might just add, as someone who grew up in 
Buies Creek, North Carolina, not far from Fort Bragg, it's a 
pleasure to be here with you.
    Mr. Hudson. Thank you.
    Mr. Wilson. A great area. But we have seen Russian hybrid 
strategy is asymmetric. So the premise of a hybrid strategy is 
that the Russians understand they can't really face us down in 
the Baltic States very easily in a traditional hard security 
way. They're not going to take us head on. So the premise of 
this is they're going to look for soft targets where they can 
play to cleavage issues and undermine from within and minimize 
their fingerprints. So Luke spoke to many of the elements that 
are required to create the resilience of societies. I think one 
of the biggest and most important things is a common 
understanding of what Russian tactics and strategy is, so that 
your population is informed and less vulnerable to that kind of 
manipulation, and governments that are actually equipped to 
understand and respond to that. It's when our own political 
divisions allow--you know, cause complication, having clarity 
on the challenge posed from Russia, which becomes a problem.
    In Georgia, we've seen--you know, because it's not in NATO, 
soft target in that sense, cleavage issues. We've seen them 
play out--gay marriage, other things--to try to associate these 
controversial social issues as being associated with the West, 
to create cleavages, to play on what are, you know, naturally 
tumultuous politics in democratic Georgia--which, in many 
democracies, how they can exacerbate some of those things. And 
so I think that's a particular concern. An awareness that it's 
happening, strategies that actually can stand up against it 
based on the credibility of the institutions. And this is where 
Georgia has some work to do. The confidence in its 
institutions, regardless of who's in charge, to be able to 
protect the state. And I think there's still work to be done in 
that front.
    And your last part--I do think we need to pay attention as 
we have a series of elections unfolding. You know, Vladimir 
Putin wants to win the easy way in his neighborhood. He 
doesn't--you know, Ukraine has become a cost for him. So by 
being able to undermine these states from within through use of 
corruption--I think corruption has become purely a major 
national security issue for the United States and our allies--
is going to look to actually play the levers in Ukraine as it 
faces major elections coming up. Particularly in Moldova this 
fall, where there is a highly competitive Russia-favorable 
party that's in play. These become the easier means for him to 
actually use his means to exert influence. And I think that's 
where we need to be vigilant in helping to expose the 
strategies underway, both strategically and tactically, and 
helping many of these new democracies withstand that type of 
pressure.
    Amb. Bakradze. Well, Senator, thank you for the question. I 
come from the country which for 70 years lived under the Soviet 
Union and therefore sometimes, more often, we recognize the 
propaganda when we see it. And therefore, there may be some 
stronger and more resilience in Georgia that one might think. 
And I think the small country advancing in many directions is a 
good demonstration of that.
    Let me put what my co-panelists described in Georgia's 
perspective, how do we leverage our bilateral relations and 
transform it into the opportunity for the confidence and trust 
building in the war-torn societies that I think is a very 
important one. Presenting alternatives, because our citizens in 
the occupied regions are also subject to Russian propaganda 
that reminds them of the war period and tries to aggravate the 
situation which is already very difficult. So presenting 
opportunities, presenting alternatives, sharing the benefits of 
the democratic development of the country--that includes the 
free health care that we were doing, that includes the visa-
free travel with the European Union, free trade with the 
European Union.
    And also I want to use this opportunity to express 
gratitude for the USAID support that has brought the small and 
medium enterprises projects in 41 villages adjacent to the 
occupation line, to give the possibility to co-work with the 
societies that are divided by the occupation line. Also, with 
the new initiative that is peace initiative for the better 
future, I believe that educational possibilities for our 
citizens in the occupied regions can be a very significant 
part, as well as the trade opportunities. And I want to thank 
also Millennium Challenge and their efforts in the education 
system in Georgia. And I believe that with these opportunities 
that we present, we build the trust that are divided. That is 
unfortunately--and the confidence that is unfortunately 
shattered throughout years.
    And I believe that with new opportunities as we advance our 
defense and security cooperation, as well as the possibility 
for the more stronger trade relationships--including through 
the free trade agreement--we believe this will expand the new 
alternatives and possibilities to our citizens living on both 
sides of the occupation line.
    Mr. Hudson. I appreciate that very much. I know we're over 
time, but if I could just follow up with--just put a little 
more detail on the record here. As we've talked about Russian 
propaganda, we've talked about interference through cyber, 
there's also been threats to infrastructure, pipelines, major 
transit routes--could you maybe give us some examples of what 
Russia's doing in Georgia to undermine this critical 
infrastructure? And what are they doing with cyber? And maybe 
an example of some Russian propaganda that you're seeing?
    Amb. Bakradze. Russian cyber was more active during the 
2008 invasion, when all the major governmental websites were 
targeted. And the Estonians have helped us a lot in overcoming 
this challenge.
    When it comes to propaganda, it always differs. It differs 
not only from country to country, but even within small country 
of Georgia it is different from one region to another.
    Mr. Hudson. They're very sophisticated on how they----
    Amb. Bakradze. Because--yes. Because they capitalize on 
fears, disillusionments, frustrations, disappointments of the 
societies. And therefore, our strategy is always very tailored. 
I, in my previous capacity as a state minister, I used to 
coordinate the work of the government on strategic 
communication to counter propaganda. The target of the Russian 
Federation is not to present alternative of Russia to the West, 
but to bring the anti-Western narrative in public and find the 
weak points where it should build. So our target was and 
maintains to be maintaining a strong support toward Georgia's 
European Union and NATO integration process. That, we are 
managing to do.
    Now, coordinating the work of the government, of the 
parliament, of the civil society, of the media organizations, 
and only marginal groups that suffer from the Russian influence 
cannot counter the very strong stance of the public that 
believes in Georgia's European and Euro-Atlantic future. Some 
examples you have asked, but I believe that when it comes to 
Georgia's European integration, that has been a target of the 
Russian propaganda. It always tries to on the one hand show 
that Georgia's reforms, that sometimes are not very popular, 
but on the way to Georgia's European integration are all in 
vain and futile, because it doesn't bring the tangible result. 
And therefore, bringing the result is critically important to 
counter that argument.
    And on the other side, to--as Damon has mentioned also--on 
the other side, to show that this integration process is going 
against Georgia's traditional values. That, of course, is not 
true and has nothing--and no basis to exist in Georgian 
society. So our effort is working with all the major 
organizations and the institutions, and explaining and helping 
them to understand what Russia is doing, to clarifying their 
methods, and maintaining a strong support to EU and NATO.
    Mr. Hudson. All right. Thank you for that. And with that, 
Mr. Chairman, I'll yield the gavel and my time to you, sir.
    Mr. Wicker. Well, thank you very much to all of our 
witnesses. I think it's been a very productive hearing. And 
before we adjourn, let me just say that it's important at this 
10-year anniversary of the invasion for the Congress and the 
general public to continue to shine the light of day on the 
facts and to call international attention to this violation of 
international law and the OSCE principles.
    And, Mr. Ambassador, I want to congratulate Georgia on the 
progress that you're making in the rule of law and independent 
judiciary, and all of the things that we look for in countries 
that we'd like to join the Western alliance.
    We're not going to forget you. We're going to continue 
speaking out about this. And we're going to be guided by the 
testimony of all three of these outstanding witnesses today. 
So, with that, unless there's anything further, we'll adjourn 
this hearing with the thanks of the commission.
    [Whereupon, at 12:43 p.m., the hearing ended.]

=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


   Prepared Statement of Hon. Roger Wicker, Chairman, Commission on 
                   Security and Cooperation in Europe

    This hearing of the Helsinki Commission will come to order.
    Good morning and welcome to this hearing on ``Russia's 
Occupation of Georgia and the Erosion of the International 
Order.''
    As you know, the Helsinki Commission monitors the 
compliance of OSCE participating States to the 1975 Helsinki 
Final Act. In recent years, we have been compelled to pay 
particular attention to Russia's clear, gross, and uncorrected 
violations of all ten principles of the OSCE's founding 
document.
    In August 2008, Russian armed forces invaded Georgia in 
direct violation of the territorial integrity and political 
independence of states. This initial invasion has led to, 
sadly, ten years of occupation, affecting a fifth of Georgia's 
sovereign territory and causing incalculable political, 
economic, and humanitarian costs.
    The invasion of Georgia demonstrated that Vladimir Putin is 
ready and willing to use his military and intelligence services 
to redraw international borders and meddle in the internal 
affairs of a neighboring state. Moreover, Putin clearly sought 
to sabotage Georgia's progress toward membership in NATO, 
contravening the principle that sovereign states have the right 
to freely join security alliances of their choosing.
    The response to the Kremlin's aggression against Georgia 
was not enough to deter Putin from trying his hand again in 
Ukraine in 2014. In fact, Georgia and Ukraine are only the two 
most egregious examples of Russian challenges to the integrity 
of our borders, our alliances, and our institutions over the 
past decade.
    The Helsinki Commission is holding this hearing to make 
sure the American people and the international community do not 
lose sight of the continued illegal occupation of Georgia--as 
well as its costs and implications. The experts before us will 
help assess if the United States is doing everything possible 
to restore Georgia's territorial integrity and reverse Putin's 
assault on the borders of a neighboring state and on the 
international order.
    We also aim to ensure Georgia's contributions to our common 
security are recognized and that we continue to help it advance 
along its path to Euro-Atlantic integration and full NATO 
membership.
    Under my chairmanship, Ranking Member Cardin and I have 
worked across the aisle to demonstrate the firm, bipartisan 
resolve of the United States Congress to restore Georgia's 
territorial integrity and see the alliance make good on its 
promise of membership.
    To that end, in March of last year, we introduced Senate 
Resolution 106 condemning Russia's continuing occupation and 
urging increased bilateral cooperation between the U.S. and 
Georgia.
    More recently, ahead of last week's NATO summit, Senator 
Cardin and I--along with Commissioners Tillis and Shaheen--
introduced Senate Resolution 557, underscoring the strategic 
importance of NATO to the collective security of the United 
States and the entire transatlantic region. This resolution 
explicitly ``encourages all NATO member states to clearly 
commit to further enlargement of the alliance, including 
extending invitations to any aspirant country which has met the 
conditions required to join NATO.'' I am especially looking 
forward to hearing how our panelists assess the outcomes of the 
NATO Summit.
    Ladies and gentlemen, we will hear testimony this morning 
from a distinguished panel who will provide valuable 
perspectives on the current state of the conflict in Georgia, 
prospects for its resolution, and recommendations for U.S. 
policy.
    I am particularly pleased to welcome Georgia's Ambassador 
David Bakradze to testify before us this morning. In addition 
to his firsthand experience managing Georgia's strategic 
bilateral relationship with the United States, Ambassador 
Bakradze has worked at senior levels of Georgia's government to 
deepen Tbilisi's Euro-Atlantic partnerships. Prior to his 
appointment to Washington in 2016, Ambassador Bakradze served 
as the State Minister of Georgia for European and Euro-Atlantic 
Integration.
    Next, we will hear from Damon Wilson, Executive Vice 
President of the Atlantic Council. Mr. Wilson's areas of 
expertise include NATO, transatlantic relations, Central and 
Eastern Europe, and national security issues. At the time of 
Russia's invasion of Georgia, Mr. Wilson was serving as special 
assistant to President George W. Bush and senior director for 
European Affairs at the National Security Council. In that 
capacity, he played a leading role at a critical time in 
managing interagency policy on NATO, the European Union, 
Georgia, Ukraine, the Balkans, Eurasian energy security, and 
Turkey.
    Finally, we will hear from Luke Coffey, Director of the 
Allison Center for Foreign Policy Studies at the Heritage 
Foundation. Mr. Coffey was named to his post in December 2015 
and is responsible for directing policy research for the Middle 
East, Africa, Russia and the former Soviet Union, the Western 
Hemisphere, and the Arctic region. Before joining Heritage in 
2012, he served at the UK Ministry of Defence as senior special 
adviser to the British Defence Secretary, helping shape British 
defense policy vis-a-vis transatlantic security, NATO, the 
European Union, and Afghanistan.
    Thank you all for being with us this morning. Ambassador 
Bakradze, you may proceed with your opening statement.

     Prepared Statement of Hon. Christopher H. Smith, Co-Chairman, 
            Commission on Security and Cooperation in Europe

    Thank you, Mr. Chairman.
    I am grateful to Chairman Wicker for holding this hearing 
because it is critical that we remember what happened in 
Georgia ten years ago and how little has changed since.
    Mr. Chairman, I speak from some experience. Ten years ago--
in the immediate aftermath of Russia's invasion of Georgia--I 
traveled to Tbilisi because the young daughters of two of my 
constituents were trapped in the conflict zone, frightened, and 
unable to return home. In terrifying fashion, the Kremlin's 
violent land grab had cut short the young girls' summer trip to 
visit their grandparents.
    On the ground, I worked with US Ambassador John Tefft, 
French Ambassador Eric Fournier, the Red Cross, and others to 
secure the girls' safe evacuation. Seven-year-old Ashley and 
three-year-old Sophia were soon reunited with their parents in 
Howell, New Jersey. Working with the Red Cross in Georgia in 
the weeks after my trip, we secured the relocation and 
evacuation of at least three other American children from areas 
ravaged by Russia's aggression.
    The experience of these children speaks to the human 
insecurity that Vladimir Putin's Russia has inflicted on 
countless families in the past decade, from Tskhinvali/South 
Ossetia, to Sevastopol, to Salisbury.
    Russia's actions have, again and again, laid bare the costs 
of war: lost lives, separated families, psychological trauma, 
and emotional pain. The disastrous economic effects of war only 
compound these humanitarian and social scars.
    It is for these reasons that the use of force by states is 
strictly circumscribed in international charters, such as the 
Helsinki Final Act, which form the cornerstone of our present 
day international order. Russia continues to violate that order 
on a continuing basis.
    A decade after its illegal invasion of South Ossetia and 
Abkhazia, Russia:

    <bullet> Lcontinues to occupy a fifth of Georgia's 
sovereign territory;
    <bullet> Lremains in violation of key provisions of the 
2008 ceasefire agreement, including the withdrawal of Russian 
forces and humanitarian access to the conflict area; and
    <bullet> Lenforces an internal administrative boundary line 
within Georgia that keeps tens of thousands of internally 
displaced Georgians from returning home.

    Make no mistake: Vladimir Putin's Russia has spent the last 
ten years in flagrant violation of all ten principles of the 
Helsinki Final Act and its behavior has only gotten worse.
    In Georgia, the Kremlin has gone from recognizing the so-
called ``independence'' of South Ossetia and Abkhazia to 
advancing their de facto annexation.
    Meanwhile, de facto authorities have intensified 
restrictions on Georgian language instruction in schools, 
escalating their Russification campaign to displace Georgian 
culture from the occupied territories entirely.
    More worryingly still, Vladimir Putin has since expanded 
his use of hybrid warfare, foreign occupation, and violent 
repression to redraw international borders, disrupt Western 
alliances, and interfere in democratic processes.
    Clearly we have not done enough to deter Russian 
aggression. Doing more means strengthening our allies and 
alliances. I applaud the Trump Administration's decision in 
November to provide anti-tank weaponry to Georgia, just as I 
have supported the Administration's decision to do so in 
Ukraine.
    But the most visible sign of U.S. solidarity would be to 
extend an invitation to NATO. Georgia has spent the ten years 
since the 2008 Bucharest Summit in limbo regarding its 
membership in the alliance. I look forward to hearing from our 
witnesses today how they view the results of the just-concluded 
NATO Summit on this point.
    Clearly, Congress, and this Commission, have demonstrated 
time and again that they stand with Georgia in the face of this 
Russian occupation and the human tragedy it continues to 
inflict on an innocent population. For example, I was proud in 
2016 to co-sponsor House resolution 660 expressing support for 
Georgia's territorial integrity, which passed in an 
overwhelming 410-6 vote.
    We look to today's witnesses to help us understand what 
more we can and should be done to help alleviate the suffering, 
bring the Russian occupation to an end, and restore Georgia's 
territorial integrity.

    Prepared Statement of Hon. Benjamin L. Cardin, Ranking Member, 
            Commission on Security and Cooperation in Europe

    Thank you, Chairman Wicker. Thank you for holding this 
hearing on Russia's continuing violation of the sovereignty and 
territorial integrity of Georgia and for your leadership of the 
Helsinki Commission.
    As Chairman Wicker mentioned, the goals of restoring 
Georgia's territorial integrity and seeing its full integration 
into NATO have been matters of robust bipartisan agreement on 
the Helsinki Commission and in the United States Congress more 
broadly.
    As Ranking Member of the Senate Foreign Relations Committee 
last year I commissioned a Minority Staff report detailing two 
decades of Vladimir Putin's assault on democratic institutions, 
universal values, and the rule of law across Europe and inside 
Russia. The report titled ``Putin's Asymmetrical Assault on 
Democracy in Russia and Europe: Implications for U.S. National 
Security'' was released in January and draws critical lessons 
from case studies of Russian aggression. The Kremlin's 2008 
invasion of Georgia was a watershed in this regard, revealing 
how the Russian Federation under Putin's influence harbors 
utter contempt for international borders and the independence 
of states when these principles prove inconvenient.
    The Georgia section of the Committee's staff report draws 
three important ``lessons learned'' from the 2008 invasion and 
subsequent occupation:

    <bullet> LFirst: Hybrid War is Here to Stay. Russia honed 
its multi-pronged conventional and cyber warfare strategy in 
its assault on Georgia. This is the same playbook we saw Putin 
use in his occupation and attempted annexation of parts of 
Ukraine in 2014. The United States must learn to anticipate, 
repel, and punish this kind of activity given Russia's growing 
foothold in Syria and perennial threat to Western allies in 
Europe, particularly the Baltics.
    <bullet> LSecond: The Asymmetric Assault is Flexible. 
Russia's occupation is not static. To this day, Putin's Kremlin 
deploys disinformation campaigns, pseudo NGOs, and political 
interference to wield influence over Georgian domestic affairs. 
We must remain vigilant to defend our institutions and those of 
our allies.
    <bullet> LFinally: Western Commitment is Key. U.S. and EU 
support have helped Georgia counteract Russia's military 
aggression and political interference but more needs to be 
done. Of chief importance is the need for NATO to honor its 
commitment at the 2008 Bucharest Summit to facilitate Georgia's 
full membership in the alliance. This serves not just Georgia's 
interest, but U.S. national security and the collective 
security of the entire European community.

    I welcome our witnesses' comments on these ``lessons 
learned'' from our report. In particular, I would appreciate 
your recommendations for additional forms of U.S. and allied 
support that would help Georgia defend its territory and 
democratic institutions.
    As the author of the Magnitsky Act, I was also interested 
to learn of Georgia's recent adoption of a Magnitsky-inspired 
sanctions bill that seeks to penalize Ossetian and Abkhaz human 
rights violators. I would like to the see the United States 
review the possibility of applying U.S. visa bans on some of 
the perpetrators identified under Georgia's Otkhozoria-
Tatunashvili Act as a sign of solidarity.
    I thank our witnesses for being with us today, and 
particularly Georgian Ambassador David Bakradze for his 
distinguished service to his country.

            Prepared Statement of Ambassador David Bakradze

Introduction

    Chairman Wicker, Co-Chairman Smith, Ranking Member Cardin, 
Ranking Member Hastings, and distinguished Commissioners, thank 
you for the opportunity to testify at this hearing.
    Today we are speaking about violations of the OSCE 
principles and commitments by the Russian Federation in the 
illegally occupied regions of Georgia.
    And I feel that this is a quite appropriate topic of 
discussion not only because ten years have passed since the 
Russia-Georgia war, when the Russian Federation invaded my 
country and occupied two Georgian regions of Abkhazia and 
Tskhinvali region/South Ossetia, but also because Russia 
continues its aggressive policy aimed at redrawing the borders 
and retaining the so-called zones of influence.
    As Chairman Wicker has very rightly pointed out, this 
undermines the security and peace in Europe and creates a very 
dangerous environment that if not appropriately countered may 
lead to developments in the region that will be hard to 
reverse.
    In my remarks today I will brief you about the situation in 
the Georgian regions illegally occupied by the Russian 
Federation. I would also like to draw your attention to the 
humanitarian, social, and other costs that Russian occupation 
has imposed on people residing in the occupied and adjacent 
areas. And I will conclude my remarks highlighting the U.S. 
role in reinforcing Georgia's efforts for preserving 
sovereignty and territorial integrity, as well as successful 
reconciliation and confidence-building.

Main Points

    It should be mentioned from the outset that since 2008 the 
Russian Federation is in breach of full spectrum of principles 
of the Helsinki Final Act of the Conference on Security and 
Cooperation in Europe, such as:

    <bullet> Lsovereignty and territorial integrity; 
inviolability of frontiers;
    <bullet> Lrefraining from the threat or use of force;
    <bullet> Lrefraining from making each other's territory the 
object of military occupation;
    <bullet> Lrefraining from any demand for, or act of, 
seizure and usurpation of territory of another State;
    <bullet> Lthe human rights and fundamental freedoms, and 
etc.

Russia's Illegal Military Presence

    Through these ten years, the Russian Federation has 
intensified its illegal steps towards factual annexation of 
Georgian regions of Abkhazia and Tskhinvali region/South 
Ossetia. Moscow has further continued the implementation of so-
called ``integration treaties'', absorbing Georgia's occupied 
regions into Russia's military, political, economic and social 
systems.
    In gross violations of all the international obligations, 
the Russian Federation reinforces its illegal military presence 
in the occupied regions of Georgia having illegally stationed 
fully operational military bases [with up to 10,000 militaries 
and 3,000 FSB personnel and sophisticated offensive weaponry], 
constantly conducting military drills [as part of the exercises 
of its Southern Military District] and violating Georgian 
airspace with its UAVs and military helicopters.
    At the same time, Russian Federation intensifies the 
installation of barbed wire fences and other kinds of 
artificial barriers along the occupation line. The total length 
of the barriers has reached 49 km along the occupation line in 
Abkhazia region and 52 km along the occupation line in 
Tskhinvali region/South Ossetia.
    Against this background, the EU Monitoring Mission deployed 
in Georgia on the basis of the Ceasefire Agreement is not 
allowed by the Russian Federation to enter the occupied Regions 
to fully implement its mandate throughout the whole territory 
of Georgia.

Human Rights Violations

    The Human Rights situation remains alarming, with 
fundamental rights of the local population infringed on a daily 
basis. Against the backdrop of intensified ethnic 
discrimination, restrictions on free movement, illegal 
detentions and kidnappings, deprivation of property rights, 
prohibition of education in native language and other 
ethnically based violations, the local population is deprived 
of minimal safeguards for their lives. This is particularly 
alarming given that international human rights mechanisms are 
not allowed to these regions of Georgia. As a result of several 
waves of ethnic cleansing since close to half a million people 
have been expelled from their homes to become IDPs and 
refugees. And they are deprived of their right to return to 
their homes in safety and dignity. Worth to note that since the 
August 2008 war 53 Georgian villages and 35.000 houses have 
been burned and ruined.
    Murder of ethnic Georgians by the representatives of the 
occupation regimes has become a dangerous trend. We all 
remember the killings of David Basharuli, Giga Otkhozoria and 
Archil Tatunashvili. In all these cases, despite cooperation by 
the government of Georgia in the relevant formats, the 
questions still remain unanswered and the perpetrators 
unpunished. This makes crystal clear that the Russian 
occupation regimes in Sokhumi and Tskhinvali not only 
strengthen the sense of impunity, but also further encourage 
ethnically targeted violence and crime against the Georgian 
population.
    In that regard on the basis of the Resolution of the 
Parliament of Georgia the ``Otkhozoria-Tatunashvili List'' was 
adopted that includes the persons accused and convicted of 
gross human rights violations in the occupied regions. Georgian 
Government seeks from its partners the imposition of sanctions 
on persons included in the List. To be very clear, the aim of 
this List is to end impunity and prevent further aggravation of 
the human rights situation in Georgia's occupied territories 
that represent ``black holes,'' an inaccessible place for 
international human rights watchdogs and humanitarian 
organizations.

Georgia's Peaceful Conflict Resolution Policy

    With these provocative steps the Russian federation tries 
to make the international community cope with its version of 
``new realities'' and undermine the efforts of Georgia and its 
international partners for peaceful conflict resolution.
    Nevertheless, throughout these ten years since the 2008 
Russia-Georgia war and occupation by the Russian Federation of 
two Georgian regions, the Government of Georgia has been 
pursuing peaceful conflict resolution policy unwaveringly:

    <bullet> LWe remain in full compliance with the EU mediated 
12 August 2008 Ceasefire Agreement;
    <bullet> LWe have reconfirmed our adherence to the non-use 
of force principle at various levels numerously and have 
implemented this commitment, still awaiting for the reciprocity 
from the Russian Federation;
    <bullet> LWe pursue the policy of dialogue with the Russian 
Federation aimed at de-escalation of tensions;
    <bullet> LWe remain committed to result-oriented engagement 
in the Geneva International Discussions and do our utmost to 
solve security and humanitarian problems of conflict-affected 
population;
    <bullet> LReconciliation and engagement policy remains our 
priority and we have even reinvigorated our efforts by 
presenting new opportunities through the new peace initiative 
``A Step to a Better Future''. These proposals are aimed at 
improving the humanitarian, social, and economic conditions of 
conflict-affected population, and fostering people-to-people 
contacts and confidence building between the communities 
divided by war and occupation lines.

    At the same time let me underline here that international 
support is decisive in order to succeed in the peaceful 
conflict resolution process. We need to be determined and 
consistent to effectively cope with the destructive policy of 
the Russian Federation. In this respect we believe that the 
further work needs to be done in the following directions:

    <bullet> LWe need to reinvigorate our efforts both within 
the GID in order to reach progress on the core items like non-
use of force commitment and implementation of this principle, 
the establishment of international security arrangements on the 
ground, and the return of IDPs and refugees, and outside this 
format as well.
    <bullet> LImplementation of the Ceasefire agreement by the 
Russian Federation, including withdrawal of its forces to the 
pre-war positions and creation of the international security 
mechanisms on the ground is essential to ensure lasting peace 
and security, as well as reconciliation of divided societies. 
Elaboration of concrete implementing steps would help advance 
this process.
    <bullet> LWe need to urge the Russian Federation as a power 
exercising effective control in the occupied regions to cease 
the human rights violations, ensure the implementation of the 
right of the IDPs and refugees to return to their homes in 
safety and dignity and allow international human rights 
monitors to address and prevent further alarming developments 
in the occupied regions.
    <bullet> LIn that regard I should also underline that 
imposing sanctions on the individuals included in 
the``Otkhozoria-Tatunashvili List'' by the international 
society would be an important step preventing the grave human 
rights violations in the occupied territories where the 
Government of Georgia is deprived of the possibility to 
exercise its legitimate jurisdiction.
    <bullet> LWe need to further intensify our efforts in order 
to ensure the unimpeded access of the EU Monitoring Mission as 
well as international human rights monitors and humanitarian 
organizations to the occupied regions of Georgia.

The U.S. Role and Conclusion

    While talking on the peaceful conflict resolution in 
Georgia, I should emphasize that the United States has a 
particular role in this process as a strategic partner to 
Georgia and a participant of the Geneva International 
Discussions. We greatly value the U.S.-Georgia strategic 
partnership and the contribution of the U.S. peace and 
stability in Georgia. The impact of the U.S. assistance is 
significant on the ground.
    On a political level, U.S. support has been extremely 
important in reinforcing Georgia's sovereignty and territorial 
integrity. The voice of the U.S. Congress has been always vocal 
on these very important to Georgia matters and we have been 
truly enjoying a very strong bipartisan support for years.
    In June, bipartisan Georgia Support Act was introduced in 
the U.S. Congress by Co-Chairmen of the Georgia Caucus, U.S. 
Congressmen Ted Poe (R-TX) and Gerald Connolly (D-VA). We also 
greatly appreciate the recent bipartisan resolution authored by 
Senators Perdue, Isakson, and Cardin marking the 100th 
anniversary of the First Democratic Republic of Georgia.
    It is the time that this political support is further 
reinvigorated in the concrete work and practical steps in order 
to ensure the implementation of Ceasefire Agreement and 
comprehensive peaceful settlement in my country, which is a 
role model for the South Caucasus and a wider region. We 
believe through consistence and hard work we can lay the ground 
for lasting peace and security in Georgia. In that regard, I 
would like to emphasize the necessity of the peaceful conflict 
resolution to be placed high in the international as well as in 
the US dialogue with Russia. Strong leadership of the United 
States is essential to reach progress in the resolution of the 
Russia-Georgia conflict.
    We deem it crucial that the United States together with the 
international society does not keep a blind eye on Russia's 
aggressive actions with regards to the occupied territory of 
Georgia and severe security and humanitarian situation on the 
ground that this policy entails. Firm stance of the 
international society, and particularly the US, is decisive to 
send a clear message to Russia that this policy directed 
against sovereignty and territorial integrity of Georgia is not 
acceptable.
    Let me once again thank the Commission for holding this 
hearing.
    I will stop here and will gladly take questions afterward.

   Prepared Statement of Damon M. Wilson, Executive Vice President, 
                            Atlantic Council

A New Strategy for NATO Enlargement to Ensure Peace in Europe
    Chairman Wicker, Co-Chairman Smith, Ranking Member Cardin, 
Ranking Member Hastings, and distinguished Commissioners:
    On April 3, 2008, at NATO's Bucharest Summit, just over 10 
years ago, the consensus among allies on how to build a Europe 
whole and free fell apart. I was serving as Senior Director for 
European Affairs at the National Security Council at the time, 
and had a front row seat for what turned out to be a summit 
nearly as unscripted as the one we just witnessed in Brussels.
    In Bucharest, NATO leaders failed to agree to offer 
Membership Action Plans (MAP) to Georgia and Ukraine to help 
them prepare to become allies. Rather, in the wake of 
inconclusive diplomacy to reach an agreement, particularly 
between Washington and Berlin, Central European leaders stepped 
into the breach, to push NATO to agree that Georgia and 
Ukraine, ``will become members of NATO.'' Seemingly, leaders 
decided that NATO membership for Georgia and Ukraine would be a 
question of when, not whether.
    Yet, today, ten years on from Bucharest and the subsequent 
Russian invasions of Georgia and Ukraine, we run the risk of 
our rhetoric not keeping pace with reality. We have agreed a 
vision, but we do not now have a strategy to get there. As a 
consequence, many allies have lost faith in the vision and we 
run the risk of accepting an unstable grey zone of insecurity 
in Europe's East.
    This is in part because Russia under Vladimir Putin has 
evolved from embracing the possibility of partnership with the 
West to advancing a reality of confrontation with NATO, the 
United States, and especially Russia's neighbors.
    In the wake of the Bucharest summit, recognizing the 
potential vulnerability of Georgia and Ukraine, US diplomacy 
went into overdrive. We launched the US-Georgia and US-Ukraine 
Charters on Strategic Partnership to bolster bilateral ties. 
Secretary of State Condoleezza Rice led an effort to intensify 
the moribund diplomatic talks on Russia's occupied territories 
and visited Tbilisi to advance diplomacy and caution against 
conflict. Yet Russia continued to pursue a dual policy of 
``creeping annexation''--that is, taking steps that tightened 
its grip on the territories of Abkhazia and the Tskhinvali 
region of South Ossetia--even as it obfuscated and undermined 
the diplomatic tracks intended to seek compromise and 
resolution.
    We felt the full consequences in August 2008 as Russian 
forces attacked and then invaded Georgia, coming within mere 
miles of Tbilisi.
    The Bucharest Summit and this subsequent invasion ended our 
strategy of advancing a Europe whole and free. This vision had 
proven wildly successful ever since President George W. Bush's 
1989 address in Mainz, Germany laying out this concept. Our 
success rested on three mutually-reinforcing pillars:

    <bullet> LBuilding a strategic partnership with Russia, 
first through the Permanent Joint Council and then the NATO-
Russia Council;
    <bullet> LEnabling former adversaries to become allies 
through NATO enlargement, with four successive post-Cold War 
rounds; and
    <bullet> LFacilitating a deepening of European integration 
as the European Community became the European Union, adopted 
the Euro, and followed NATO with its own enlargement.

    These advances happened in a parallel, cyclical fashion. 
Each step making the next step viable. It was at Bucharest and 
the subsequent invasion of Georgia when Putin acted to disrupt 
this process. Indeed, as early as February 2007 at the Munich 
Security Conference, Putin stunned Western audiences by 
speaking clearly about his rejection of the order in Europe and 
began to reposition the West as an adversary of Russia. His 
resolve to oppose the West weakened the resolve of the Alliance 
to advance the West at Bucharest.
    Since 2008, we have witnessed a revanchist Kremlin, intent 
on undoing the gains of the post-Cold War period, reshaping the 
international order that allowed Europe to remain peaceful and 
prosperous, and ensuring the domination of its neighbors.
    The strategic environment has now changed dramatically and 
sufficiently that our approach to Georgia and Ukraine should 
change as well.
    The first significant shift among allies is that they all 
now recognize the challenge posed by a revanchist Russia. The 
annexation of Crimea, the invasion of eastern Ukraine, and the 
continued fighting has driven home among all our allies the 
nature of the threat that European security and the 
international order faces if left unchecked. This is why last 
week's NATO summit continued to adopt strong defense and 
deterrence measures.
    This new understanding opens the way for the Alliance to 
adopt a new approach to Europe's East to correct the mistakes 
of Bucharest and to ensure that we have a strategy so that our 
rhetoric becomes reality.
    This process has already begun. At the just-concluded NATO 
Summit, allied leaders invited the government in Skopje to 
begin accession negotiations, paving the way for the Republic 
of North Macedonia to become NATO's 30th member upon finalizing 
the name deal between Skopje and Athens. It was in Bucharest 
where NATO failed to extend this invitation, opening a decade 
of stagnation that led to a crisis in the Western Balkan 
nation. Last week's decision, overcomes that failure.
    We can do the same with Georgia and eventually Ukraine.
    We witnessed in this Brussels Summit that despite 
transatlantic tensions and division, there was consensus on 
enlargement. This is significant because this consensus allowed 
NATO to meet the Bucharest commitment to extend an invitation 
as soon as Athens and Skopje reached a deal on the name issue. 
This decision also ensures we will eliminate any security 
vacuum in the Western Balkans.
    We witnessed what a decade of indecision produced in the 
Western Balkans: democratic erosion and economic stagnation 
within the country, combined with stepped-up Russian influence.
    Enlargement is a stabilizing factor. Enlargement advances 
US interests as it welcomes nations to our alliance which are 
willing to assume the responsibility of becoming an ally, while 
also ensuring that the new ally is immunized from Russia's 
efforts to destabilize it.
    We have witnessed the same formula in the Baltic states. 
Once considered too controversial to consider as NATO members, 
enlargement brought stability and security to the nations, 
giving them confidence to develop predictable, normal relations 
with Russia. While the region is tense today given Russia's 
aggressive intimidation tactics, imagine what Northeast Europe 
would look like if the Baltic states were not in NATO. Our 
crisis in Europe's East would not be confined to Ukraine's 
East.
    This logic applies to Georgia today.
    The Russia-pedaled paradigm that enlargement is provocative 
is wrong. Leaving nations, whose people aspire to join the 
alliance, in limbo over time is provocative as it tempts Russia 
to extend its influence--its sphere of influence--either 
through sowing chaos to ensure weak states or occupation and 
domination to ensure obedient neighbors.
    As history has shown, this Russian strategy is not a recipe 
for stability, but for perpetual instability and potential 
conflict. Even the most cynical grand bargain consigning 
Georgia and Ukraine to Russia's sphere of influence would not 
be durable as it denies the aspirations and agency of the 
people of the nations themselves. They have a say in their 
future. Witness the Rose Revolution and subsequent democratic 
transitions in Georgia. Witness the Maidan and continued 
resistance to occupation in the east.
    It is easy to argue that we are in a period of tension with 
Putin's Russia today, so why make things worse by considering 
enlargement to Georgia and eventually Ukraine?
    To put today's dilemma facing us in perspective consider 
the 1950s. Europe was only beginning to recover from the 
devastation of World War II. Greece was emerging from a brutal 
civil war that ended in 1949. Turkey remained weak and 
vulnerable to Soviet probing as Joseph Stalin sought more 
reliable access to the Mediterranean. Indeed, Russia sought to 
topple the government in Ankara during the Turkish Straits 
Crisis. Furthermore, these two nations--much like France and 
Germany in Western Europe--had been historic adversaries in 
Southeast Europe.
    Furthermore, the Truman administration was facing a world 
in which the Soviets had attained the atomic bomb, the West was 
witnessing a Soviet advance in Europe and globally, and 
tensions were mounting on the Korean peninsula. Yet President 
Truman stepped in decisively--first bilaterally and then 
through NATO--to anchor Greece and Turkey together in the West. 
Rapidly, US diplomacy overcame an obvious flashpoint and 
anchored a region bordering the Soviet Union in NATO. Imagine 
what would have happened in this region during the Cold War 
without Greece and Turkey as allies.
    Jump forward to today. It is the absence of security for 
Georgia and Ukraine that has tempted Russia to occupy and annex 
their territory. Russia aims to keep these neighbors at best in 
a permanent grey zone, and at worst under its domination.
    Article 10 of the Washington Treaty makes clear that allies 
by unanimous agreement may invite any European state ``in a 
position to further the principles of this Treaty and to 
contribute to the security of the North Atlantic area.''
    Georgians and Ukrainians have done more than most to fight 
to defend the principles of the Alliance. They are also 
prepared to be serious contributors. Both spend well over 2 
percent of their GDP on defense. Georgia is among the most 
significant troop contributors to NATO and other international 
missions. Ukraine has the most battled-tested forces of any 
European nation. And both are already acting as allies, joining 
NATO and the European Union on major policy decisions.
    Yet NATO has handcuffed itself by abiding by the principles 
developed in its 1995 Study on Enlargement and its adoption of 
the MAP process in 1999. The study on enlargement sets 
expectations that nations aspiring to membership will resolve 
any territorial disputes before entering the alliance. Allies 
adopted the MAP process to help nations take the practical 
steps to better prepare to become members.
    NATO needs to reexamine these policies. These policies were 
crafted in different--that is, benign--geopolitical 
circumstances. They made great sense then. Today, however, 
NATO's own policies only incentivize Russia to hold on to 
occupied territories as long-term insurance to prevent NATO or 
for that matter EU enlargement.
    Similarly, in today's environment, MAP only serves to 
signal to Russia that the Alliance is getting more serious 
about membership, without yet being serious about membership. A 
MAP decision in many respects begins a countdown clock which 
may put pressure on Moscow to act to disrupt the neighbor's 
accession process before it accedes, much like we witnessed in 
Montenegro with the October 2016 Russian-backed attempted coup 
in the run-up to its accession to NATO.
    To avoid this dynamic, NATO needs to reexamine and update 
its Open Door policy for today's new circumstances. Doing so 
should be coupled with NATO efforts to maintain dialogue with 
Russia and to provide and seek greater transparency.
    Allies should make clear that their commitment that there 
is no third-party veto over enlargement decision means that 
Russian occupation will not serve as an obstacle to membership. 
Allies should also recognize that a Membership Action Plan is 
not a requirement for membership. Rather instruments like the 
NATO-Georgia Commission and its Annual National Plans provide 
even more rigor in helping Georgia prepare. Indeed, NATO 
Secretary General Jens Stoltenberg said in December 2016, 
``Georgia has all the practical tools to become a member of 
NATO.''
    Yes, this is tricky, but it is doable. Historians of NATO 
know well the debates on how, when, and where NATO's security 
guarantee in Article 5 would apply--an attack on one will be 
considered as an attack on all. In 1955, West Germany became 
part of NATO without the Germans relinquishing their commitment 
to eventual unification. France argued successfully for Article 
5 to include Algeria, a decision the North Atlantic Council had 
to later reverse. Belgium argued unsuccessfully to apply the 
treaty to its holdings in the Belgian Congo. Today, Spain 
governs territory on mainland Africa, the cities of Ceuta and 
Melilla in Morocco, but there is no expectation that this 
territory is part of the Alliance's defense plans.
    In the case of Georgia and eventually Ukraine, the North 
Atlantic Council can make clear that the Washington Treaty does 
not apply to the occupied territories, but without 
relinquishing Allied commitment to the nations' territorial 
integrity and without Tbilisi or Kyiv giving up their claims of 
sovereignty.
    There is a benefit to acting decisively. Such a strategy 
can only advance with American leadership. Much like the Truman 
administration, a serious US bilateral commitment to Greece and 
Turkey assured the other allies of our commitment and made the 
NATO decision, while a momentous one, not a controversial one.
    Today, Europe finds itself again at the center of global 
geological competition. The circumstances require that we not 
be ambivalent. Deterrence is about the psychology and the 
perception of your adversary, as much as about military 
capabilities and plans. The premise of our defense of the 
Baltic states is deterrence, backed up by planning and now some 
modest forces. The same can apply for Georgia.
    The post-World War II formula for US strategy in Europe was 
that NATO security guarantees would allow for stronger 
political cooperation among former adversaries and provide a 
framework of confidence for economic growth and integration. 
That formula worked dramatically well, and it remains valid.
    My ideas seem counterintuitive at a time of transatlantic 
divisions and heightened tension with Russia. Yet a big 
transatlantic project could help anchor the alliance. This 
strategy would also anchor Turkey more firmly within the West. 
It would provide Russia a more predictable set of neighbors. It 
would remove grey zones that tempt a revanchist Kremlin. 
Precisely because of geopolitical tension, the elimination of 
grey zones of insecurity can help ensure durable peace in 
Europe's East.
    At the Atlantic Council, we believe that we must work 
alongside our allies and partners to secure the future while 
recognizing our failure--witness Ukraine, witness Syria--will 
open the door to less benevolent forces or violent chaos.
    This maxim applies more than ever today in how to think 
about Georgia and its future relationship with NATO.
    Permitting these nations' aspirations to be held hostage by 
Russian occupation and intimidation is a recipe for instability 
and conflict in Europe. We cannot allow these nations, known as 
captive nations for much of the 20th century, to become known 
as hostage nations in the 21st century. Rather, we should 
recognize that they stand on the frontline of freedom and 
anchor them within our NATO alliance to ensure peace in 
Europe's East.
    Thank you.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
